Department of Homeland Security
   Ofﬁce of Inspector General

                FEMA’s Preparedness for 

             the Next Catastrophic Disaster -

                       An Update 





OIG-10-123                                   September 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                         September 27, 2010


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the results of our assessment of FEMA’s preparedness for the next
catastrophic disaster. It is based on interviews with employees and officials, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .........................................................................................................................1 


Background ......................................................................................................................................4 


Results of Review ............................................................................................................................8 


     Overall Planning ........................................................................................................................9 


     Coordination and Support ........................................................................................................15 


     Emergency Communications ...................................................................................................19 


     Logistics...................................................................................................................................24 


     Evacuations ..............................................................................................................................28 


     Housing ....................................................................................................................................32 


     Disaster Workforce ..................................................................................................................37 


     Mission Assignments ...............................................................................................................42 


     Acquisition Management .........................................................................................................46 


     Mitigation.................................................................................................................................50 


Conclusion and Recommendations................................................................................................55 


Management Comments and OIG Analysis ..................................................................................56 


 Appendices
     Appendix A: Purpose, Scope, and Methodology.....................................................................58 

     Appendix B: Management Comments to the Draft Report .....................................................60 

     Appendix C: Selected Reports .................................................................................................71
 

     Appendix D: Major Contributors to this Report ......................................................................76 

     Appendix E: Report Distribution .............................................................................................77 

Table of Contents/Abbreviations 


Abbreviations
  ADD           Automated Deployment Database
  COTR          Contracting Officer’s Technical Representative
  CSP           Cadre-Specific Plan
  DHS           Department of Homeland Security
  DMSWG         Distribution Management Strategy Working Group
  DRWD          Disaster Reserve Workforce Division
  eCAPS         Enterprise Coordination and Approvals Processing System
  EMI           Emergency Management Institute
  ESF           Emergency Support Function
  FCC           Federal Communications Commission
  FCO           Federal Coordinating Officer
  FEMA          Federal Emergency Management Agency
  FY            Fiscal Year
  GAO           Government Accountability Office
  GSA           General Services Administration
  HSSAI         Homeland Security Studies and Analysis Institute
  IT            Information Technology
  LMD           Logistics Management Directorate
  LSCMS         Logistics Supply Chain Management System
  MA            Mission Assignment
  MAWG          Mission Assignment Working Group
  MERS          Mobile Emergency Response Support
  NAPA          National Academy of Public Administration
  NFIP          National Flood Insurance Program
  NRF           National Response Framework
  OCPO          Office of the Chief Procurement Officer
  OIG           Office of Inspector General
  OMB           Office of Management and Budget
  PFO           Principal Federal Official
  P.L.          Public Law
  PNP           Protection and National Preparedness
  TAV           Total Asset Visibility
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 In March 2008, we issued a report in response to a request from the House
                 Committee on Oversight and Government Reform to perform a high-level
                 assessment of the Federal Emergency Management Agency’s
                 preparedness to handle a future disaster. We reported that the agency had
                 made progress in all of the key preparedness areas we reviewed, although
                 in some areas the progress was modest or limited.

                 The primary objective of this assessment was to determine the progress
                 the Federal Emergency Management Agency has made in the key
                 preparedness areas. We reviewed pertinent reports, including those of our
                 office and the Government Accountability Office, as well as congressional
                 testimony. We interviewed agency officials and evaluated documents
                 provided by them. Within each of the ten key preparedness areas, we
                 collaborated with agency officials to confirm that the critical components
                 identified in 2008 were still relevant or to update the critical components.
                 We assessed the agency’s progress in each of the areas against a four-
                 tiered scale: substantial progress, moderate progress, modest progress,
                 and limited or no progress.

                 Given the scope and limitations of our review, we did not perform an in-
                 depth assessment of each of the ten key preparedness areas. We used the
                 critical components within each area, as well as our broader knowledge of
                 the key preparedness areas, to gauge the agency’s overall progress. In
                 response to our draft report, the agency provided information on specific
                 activities underway. While we incorporated this information where
                 appropriate, our assessment remains a high-level assessment. We
                 recognize the importance of the many agency programs in various stages
                 of development and implementation, and we will consider these programs
                 as we plan future audits.

                 Overall, the Federal Emergency Management Agency has made
                 substantial progress in one of the ten key areas, moderate progress in
                 seven areas, and modest progress in two areas (see figure 1). It would
                 benefit from increased oversight of key preparedness areas to ensure that
                 implementation of initiatives is sustained.



            FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                          Page 1 

     Concerns that are common to our review of the critical components
     include: (1) the need for more effective coordination with state, local, and
     tribal governments; (2) the need for information technology systems that
     are updated and integrated agency-wide; (3) too few experienced staff to
     handle the increasing workload; and (4) funding that is not adequate to
     maintain initiatives, meet the costs of disasters, and recruit, train, and
     retain staff.

     It should be noted that we and the Government Accountability Office have
     made many recommendations in our audits of agency operations that
     involve the key preparedness areas mentioned in this report. Many of
     these recommendations remain open. (See appendix C for a list of recent
     Office of Inspector General and Government Accountability Office
     reports.) We will continue to work with the Federal Emergency
     Management Agency to ensure that corrective action plans are submitted
     and that progress is made in fully implementing report recommendations.
     In addition, we plan to report the status of recommendations in our
     semiannual report.

     In our 2008 report, we made recommendations in most of the critical areas
     discussed above. We recommended: (1) improving the agency’s overall
     awareness of its readiness for a catastrophic disaster; (2) developing and
     sustaining systems to track the progress of major programs, initiatives, and
     other activities; and (3) regularly sharing reports on the status of such
     activities with key stakeholders. We reiterate those recommendations,
     which remain open, and will continue to work with the Federal Emergency
     Management Agency to ensure progress is made toward better
     preparedness for the next catastrophic disaster.




FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                              Page 2 

Figure 1. Scorecard for Select Federal Emergency Management Agency Preparedness
Areas
                                                                    2008      2010
Key Preparedness Areas                                                                Progress      Progress
OVERALL PLANNING                                                                      Moderate      Moderate
   • Develop a strategy to guide the integration of prevention, response, and         Moderate      Modest
       recovery efforts
   • Complete assessments of capabilities and readiness at the national, state, and   Modest        Moderate
       local levels
   • Enhance community disaster preparedness                                          Moderate      Modest
   • Enhance catastrophic disaster preparedness at all levels                         Moderate      Moderate
COORDINATION AND SUPPORT                                                              Moderate      Moderate
   • Implement the National Response Framework and specific operations plans          Modest        Modest
   • Clarify the roles, responsibilities, and authorities of the Principal Federal    Moderate      Substantial
       Official and Federal Coordinating Officer
   • Provide law enforcement access to FEMA records                                   Substantial   Substantial
EMERGENCY COMMUNICATIONS (New critical components in 2010)                            Moderate      Substantial
   • Coordinate communications support for state, local, and tribal responders                      Substantial
       during Stafford Act incidents
   • Manage the deployment and operation of communications assets                                   Substantial
   • Manage emergency communications grants                                                         Moderate
LOGISTICS (One new critical component in 2010)                                        Moderate      Moderate
   • Establish total asset visibility through the Logistics Supply Chain              Moderate      Moderate
       Management System
   • Establish a national supply chain strategy                                                     Moderate
EVACUATIONS (New critical components in 2010)                                         Modest        Moderate
   • Augment state, tribal, and local emergency evacuation plans and operations                     Moderate
   • Establish the capability to implement a federally supported or federalized                     Moderate
       evacuation
HOUSING                                                                               Modest        Moderate
   • Develop a National Disaster Housing Strategy                                     Modest        Moderate
   • Develop plans to purchase, track, and dispose of temporary housing units         Modest        Moderate
   • Strengthen state and local commitment to house affected citizens                 Modest        Modest
DISASTER WORKFORCE                                                                    Modest        Modest
   • Adopt a Strategic Human Capital Plan                                             Moderate      Moderate
   • Manage the disaster workforce and integrate workforce management tracking        Modest        Modest
       systems
MISSION ASSIGNMENTS                                                                   Limited       Modest
   • Improve guidance for mission assignments (i.e., regulations, policies, and       Modest        Moderate
       operating procedures)
   • Improve staffing and training                                                    Limited       Modest
   • Enhance management of mission assignments                                        Limited       Limited
ACQUISITION MANAGEMENT                                                                Moderate      Moderate
   • Have predisaster contracts in place                                              Moderate      Substantial
   • Recruit, train, and retain sufficient acquisition staff                          Moderate      Moderate
   • Provide for postaward oversight                                                  Modest        Modest
MITIGATION (New preparedness area in 2010)                                                          Moderate
   • Develop an integrated National Hazard Mitigation Strategy                                      Modest
   • Improve local hazard mitigation planning process                                               Moderate
   • Improve hazard mitigation operations and outcomes                                              Moderate




                  FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                   Page 3 

Background
              In responding to natural or manmade emergency situations, current
              doctrine dictates that the government agencies and organizations most
              local to the situation act as first responders. When state and local
              governments become overwhelmed by the size or scope of the disaster,
              state officials may request assistance from the federal government, so
              federal agencies must always be prepared to provide support when needed.
              In 1979, President Carter issued an Executive Order that created the
              Federal Emergency Management Agency (FEMA) and merged many of
              the separate disaster-related federal functions. Following the terrorist
              attacks of September 11, 2001, the Homeland Security Act of 2002 (Public
              Law [P.L.] 107-296) (Homeland Security Act) realigned FEMA and made
              it part of the newly formed Department of Homeland Security (DHS).

              FEMA’s statutory authority comes from the Robert T. Stafford Disaster
              Relief and Emergency Assistance Act, as amended (P.L. 100-707)
              (Stafford Act), which was signed into law in 1988 and amended the
              Disaster Relief Act of 1974 (P.L. 93-288). To access federal assistance
              under the Stafford Act, generally, states must make an emergency or
              major disaster declaration request that is reviewed by FEMA for
              presidential approval. The Stafford Act also permits FEMA to anticipate
              declarations and prestage federal personnel and resources when a disaster
              threatening human health and safety is imminent, but not yet declared.

              Between January and May 2010, FEMA responded to more than 40
              presidentially declared emergencies and disasters. Since 1980, the
              average number of events to which FEMA responds each year has risen
              from 25 to about 70. Figure 2 shows the number of presidentially declared
              emergencies and disasters from January 1980 through December 2009.




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                       Page 4 

Figure 2. Presidentially Declared Emergencies and Disasters, 1980 Through 2009

         70

         60

         50

         40

         30

         20

         10

          0
          1980                                        1990                                        2009

Source: FEMA.


                          FEMA spends an average of $4.3 billion each year on responding to
                          disasters.1 Most of the money is spent on direct disaster assistance
                          programs such as Individual Assistance (e.g., temporary housing), Public
                          Assistance (e.g., debris removal and repair of damaged public property),
                          and the Hazard Mitigation Grant Program (e.g., retrofitting buildings to
                          make them resistant to earthquakes or strong winds). These programs are
                          intended to address the short-, medium-, and long-term impacts of a
                          disaster on individuals and communities. Figure 3 reflects FEMA’s
                          budgetary resources, including the Disaster Relief Fund, from FY 2005
                          through FY 2009.




1
 The fiscal year (FY) 2011 budget request includes a $5.1 billion supplemental appropriation for costs associated
with previous catastrophic disasters.

                    FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                      Page 5 

Figure 3. FEMA’s Budgetary Resources, FY 2005 Through 2009

      90

      80

      70

      60

      50

      40

      30

      20

      10

       0
       2005                 2006                 2007                2008                 2009

    Source: DHS Annual Financial Report Data. Budgetary resources include unobligated balances
    carried forward; recoveries of prior year obligations; current year budget authority; and
    nonexpenditure transfers.



                      In December 2009, FEMA implemented a new organizational structure
                      designed to help it achieve its emergency management mandate more
                      effectively. The new structure is intended to help strengthen key functions
                      that had been previously fragmented across multiple organizational
                      divisions and enable FEMA to better support the disaster management
                      efforts of citizens and first responders. Figure 4 shows the new
                      organizational structure.

                      Since 1993, FEMA has been called upon to help support many routine
                      natural disasters that historically would have been handled entirely by
                      state and local governments. At the same time, some state and local
                      governments cut funding to their own emergency management programs,
                      thereby rendering themselves less prepared to handle routine disasters like
                      floods, fires, or storms. As a relatively small federal agency, many of
                      FEMA’s staff are “dual-hatted.” During nondisaster times, their primary
                      roles may be to support planning and preparedness efforts. When a
                      disaster hits, however, they may be working in the field on response and
                      recovery. As more disasters are declared and disasters stay open for
                      longer periods of time, more FEMA staff resources are diverted from
                      planning and preparedness efforts.




                 FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                 Page 6 

Figure 4. FEMA Organization as of February 2010




Source: FEMA.

                            In March 2008, we performed a high-level assessment of FEMA’s
                            preparedness for the next catastrophic disaster. We reported that FEMA
                            had made moderate progress in five of nine key preparedness areas,
                            modest progress in three areas, and limited progress in one area.2 From
                            November 2009 to May 2010, we conducted fieldwork to assess FEMA’s
                            current state of preparedness in these areas. We also included an
                            assessment of Mitigation in this current review.


2
    FEMA’s Preparedness for the Next Catastrophic Disaster (OIG-08-34), March 2008.

                      FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                       Page 7 

Results of Review
     We assessed FEMA’s progress to improve preparedness in the following key areas:

        •   Overall Planning
        •   Coordination and Support
        •   Emergency Communications
        •   Logistics
        •   Evacuations
        •   Housing
        •   Disaster Workforce
        •   Mission Assignments
        •   Acquisition Management
        •   Mitigation

     Overall, FEMA has made substantial progress in one of the ten key areas, moderate
     progress in seven areas, and modest progress in two areas. FEMA would benefit from
     increased oversight of key preparedness areas to ensure that initiatives are being
     implemented.

     Concerns that are common to our review of the critical components include: (1) the need
     for more effective coordination with state, local, and tribal governments; (2) the need for
     information technology (IT) systems that are updated and integrated agency-wide; (3) too
     few experienced staff to handle the increasing workload; and (4) funding that is not
     adequate to maintain initiatives, meet the costs of disasters, and recruit, train, and retain
     staff.

     FEMA continues to make progress in leading the federal effort in responding to
     catastrophic disasters. FEMA can build on this progress by maintaining its momentum in
     continuing to develop and implement the critical components of the ten key preparedness
     areas discussed in this report.




               FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                             Page 8 

Overall Planning 





                                Modest Progress     Moderate Progress




       Limited or No Progress                                           Substantial Progress




     Background
            FEMA’s Protection and National Preparedness (PNP) is responsible for leading
            America’s efforts to enhance preparedness to prevent, protect from, respond to,
            and recover from natural and manmade disasters. It strives to ensure that the
            Nation is prepared through a comprehensive cycle of planning, organizing,
            equipping, training, and exercising.

            In our 2008 report, we assessed five critical areas of Overall Planning. For this
            update, we combined two of the previously assessed critical areas because of their
            similarities. We combined the “Enhance preparedness at all levels” and “Enhance
            preparedness for the management and resolution of catastrophic events” areas into
            the critical area “Enhance catastrophic disaster preparedness at all levels.” In
            2008, we assessed FEMA’s progress in both of these areas as moderate.

            This assessment of Overall Planning focuses on FEMA’s efforts to:

                 •	 Develop a strategy to guide the integration of prevention, response, and
                    recovery efforts;
                 •	 Complete assessments of capabilities and readiness at the national, state,
                    and local levels;
                 •	 Enhance community disaster preparedness; and
                 •	 Enhance catastrophic disaster preparedness at all levels.




               FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                  Page 9 

                    Develop a strategy to guide the              Complete assessments of
                      integration of prevention,              capabilities and readiness at the
                    response, and recovery efforts            national, state, and local levels




                               Modest                                      Moderate
                         Enhance community                        Enhance catastrophic disaster
                         disaster preparedness                      preparedness at all levels




                               Modest                                      Moderate


        Critical Components
                 Develop a strategy to guide the integration of prevention, response, and recovery
                 efforts (Modest) – Our 2008 report rated FEMA’s progress in this critical area as
                 moderate, given that the strategy and guidance for integration of prevention,
                 response, and recovery efforts was under development and would soon be
                 implemented.

                 The Post-Katrina Emergency Management Reform Act of 2006 (Post-Katrina Act)
                 directed FEMA to integrate its emergency preparedness, protection, response,
                 recovery, and mitigation responsibilities and to develop and coordinate the
                 implementation of a risk-based, all-hazards strategy for preparedness. However,
                 FEMA’s PNP has yet to complete the development and implementation of a
                 strategy and guidance for the integration of prevention, response, and recovery
                 efforts.3 In April and October 2009, the Government Accountability Office
                 (GAO) reported that the PNP had not developed a strategic plan.4 In the interim,
                 PNP used its annual operating plan, which aligns with FEMA’s strategic plan, to

3
  The Post-Katrina Emergency Management Reform Act of 2006, Section 503 (2) (D), directed the FEMA
Administrator to integrate the agency’s emergency preparedness, protection, response, recovery, and mitigation
responsibilities to confront effectively the challenges of a natural disaster, act of terrorism, or other manmade
disaster.
4
  National Preparedness, FEMA Has Made Progress, but Needs to Complete and Integrate Planning, Exercise, and
Assessment Effort (GAO-09-369), April 2009. Emergency Management, Preliminary Observations on FEMA’s
Community Preparedness Programs Related to the National Preparedness System (GAO-10-105T), October 2009.
At the time of these reports, PNP was known as the National Preparedness Directorate.


                    FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                      Page 10 

                 guide its integration strategy. However, the GAO report noted that the annual
                 operating plan does not have key elements of an effective national strategy, such
                 as how to gauge progress.

                 FEMA officials indicated that PNP is in the process of developing a strategic plan
                 that will strengthen the integration of each of the directorate’s divisions and
                 include specific goals, timelines, milestones, and measurements of progress. PNP
                 plans to develop a new version of its strategic plan and begin implementation by
                 the end of December 2010. However, the timeline for completing the strategic
                 plan will hinge primarily on the completion of the new Presidential Policy
                 Directive on National Preparedness, which is currently in draft, and the
                 recommendations of the National Preparedness Task Force. Specifically, PNP
                 has taken the following actions on its strategic plan:

                     •	 Creating a community of division-level leadership to help guide and
                        execute the new strategy being developed;
                     •	 Performing inventories and analyses to lay the foundation for the strategy
                        that aligns PNP-wide activities to the strategic focus; and
                     •	 Identifying a three-phased approach to strategic planning. (Currently, the
                        first round of review for Phase I: “Creating Strategic Focus” is
                        underway.)

                 FEMA officials emphasized that the Quadrennial Homeland Security Review, the
                 Bottom-Up-Review, the Presidential Policy Directive on National Preparedness,
                 and recommendations of the National Preparedness Task Force will have
                 significant implications for the agency and the national preparedness system.

                 Complete assessments of capabilities and readiness at the national, state, and local
                 levels (Moderate) – FEMA used the Cost to Capabilities initiative and the Gap
                 Analysis Program to conduct capabilities and readiness assessments.5 The Cost to
                 Capabilities initiative was intended to optimize the impact of homeland security
                 grant dollars on preparedness efforts, and the Gap Analysis Program was designed
                 to improve operational readiness by reducing response and recovery capability
                 shortfalls throughout all levels of government.

                 FEMA conducted gap analyses in 2008 and 2009 for FEMA Regions I, II, III, IV,
                 and VI. Once the gaps were identified, FEMA worked closely with the states to
                 mitigate the shortfalls. For example, in May 2009, a state in FEMA Region I
                 reported that it would be unable to meet transportation and evacuation needs if a
                 Category 3 hurricane made landfall. FEMA is working with the state to provide
                 technical assistance in developing and refining its evacuation plans.



5
 The Post-Katrina Act requires the FEMA Administrator to establish a comprehensive assessment to assess, on an
ongoing basis, the Nation’s prevention capabilities and overall preparedness, including operational readiness.

                   FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                    Page 11 

                In July 2009, the FEMA Administrator issued a moratorium on new information
                requests from state, tribal, and local governments. This suspension of data
                collection applies to the Cost to Capabilities initiative and the Gap Analysis
                Program. The FEMA Administrator directed PNP to gather all the reporting
                information required by directorates and develop a consolidated process that
                eliminates duplication and minimizes the burden on state, local, and tribal
                partners. The Reporting Requirements Working Group was formed in August
                2009, composed of FEMA representatives and officials from state, local, tribal,
                and territorial governments. The working group meets regularly, and a proposal
                to streamline reporting requirements is due to the FEMA Administrator this fiscal
                year.

                PNP is also leading an effort to update the status of catastrophic planning in all 50
                states and 75 of the Nation’s largest urban areas. This update was undertaken at
                the direction of Congress and was due in April 2010.6 As of May 2010, FEMA
                was finalizing the report.

                Enhance community disaster preparedness (Modest) – Although FEMA
                emphasizes the importance of individual and community preparedness, significant
                challenges remain. Our 2008 report rated FEMA’s progress in this critical area as
                moderate, as efforts were underway to coordinate and integrate community
                disaster preparedness through the Citizen Corps Program and the Ready
                Campaign. However, in January 2010, GAO reported that FEMA has been
                unable to measure performance effectively for these programs.7 FEMA is in the
                process of developing a corrective action plan to address GAO’s concerns.

                The Citizen Corps Program is intended to make communities safer, stronger, and
                better prepared to respond to disasters of all kinds through education, training, and
                volunteer service. The program uses the number of local volunteer organizations
                registered nationwide as its principal performance measure, but the GAO report
                said that FEMA does not verify that registration data are accurate. FEMA
                officials said that a survey tool to assess the activities of Citizen Corps Councils
                nationwide has been developed and is awaiting approval from the Office of
                Management and Budget (OMB).

                The Ready Campaign is a national public service advertising campaign designed
                to educate citizens to prepare for and respond to terrorist attacks and other
                emergencies. GAO determined that FEMA has been unable to control the
                distribution of the Ready Campaign messages or measure whether the messages
                are changing individuals’ behavior.



6
 Conference Report (111-298) accompanying the Department of Homeland Security Appropriations Act, 2010.
7
 Emergency Preparedness, FEMA Faces Challenges Integrating Community Preparedness Programs into Its
Strategic Approach (GAO-10-193), January 2010.

                   FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                  Page 12 

                   In 2008, we noted that various offices within DHS are responsible for elements of
                   community preparedness, which was a challenge. However, since 2008, several
                   programs, such as the Ready Campaign and faith-based community initiatives,
                   have been transferred to FEMA.

                   In January 2009, FEMA hosted a summit to generate ideas for creating a culture
                   of preparedness. Government and nongovernment experts in emergency
                   management, sociology, psychology, mass communications, and commercial
                   marketing attended the summit. FEMA used the results from the summit and
                   findings from a FEMA report titled Personal Preparedness in America: Findings
                   from the 2009 Citizen Corps National Survey to draft a Community Preparedness
                   Strategic Approach to promote a culture of preparedness.8

                   In October 2009, the National Academy of Public Administration (NAPA)
                   reported that FEMA has taken significant steps to integrate preparedness and
                   develop more robust regional offices.9 However, the report concluded that while
                   progress has been made: (1) preparedness is not fully integrated across FEMA; (2)
                   FEMA’s regional offices do not yet have the capacity required to ensure that the
                   Nation is fully prepared; and (3) stakeholders are not yet full partners with FEMA
                   in national preparedness.

                   Enhance catastrophic disaster preparedness at all levels (Moderate) – FEMA has
                   made progress enhancing catastrophic preparedness, particularly at the regional
                   level. FEMA officials told us that several regional planning initiatives have been
                   undertaken since 2008, including the Hawaii Hurricane Plan, the San Francisco
                   Bay Area Earthquake Plan, the Northwest Nevada Earthquake Plan, and the
                   Florida Hurricane Plan. Planning initiatives currently underway include the
                   Southern California Earthquake Planning Initiative, the Guam Typhoon Planning
                   Initiative, the Gulf Coast Hurricane Planning Initiative, and the New Madrid
                   Seismic Zone Catastrophic Earthquake Planning Initiative.

                   In April 2010, Secretary Napolitano announced the creation of a National
                   Preparedness Task Force charged with making recommendations for all levels of
                   government regarding: (1) disaster and emergency guidance and policy; (2)
                   federal grants; and (3) federal requirements, including measuring efforts. The
                   task force includes federal, state, tribal, territorial, and local government officials,
                   nongovernmental organization officials, and private sector officials. The task
                   force will conduct regular meetings and expects to deliver recommendations in
                   September 2010.

                   PNP is also working to complete FEMA’s first National Preparedness Report,
                   which will describe federal, state, and local preparedness levels and identify
                   nationwide trends that can inform decisionmakers on what actions are needed to

8
    Personal Preparedness in America: Findings from the 2009 Citizen Corps National Survey, December 2009.
9
    NAPA, FEMA’s Integration of Preparedness and Development of Robust Regional Offices, October 2009.

                     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                     Page 13 

     further enhance our Nation’s preparedness for 4 of the 15 National Planning
     Scenarios: Improvised Explosive Device, Improvised Nuclear Device, Pandemic
     Influenza, and Hurricane. The draft National Preparedness Report is in the
     clearance phase with OMB. In May 2010, PNP conducted the 2010 National
     Level Exercise to test its catastrophic planning efforts. The exercise tested the
     response capabilities to an improvised nuclear device detonation.

     FEMA officials stated that FEMA regional offices encourage constant dialogue
     with state and local governments and reap the benefits of a better awareness of
     what is happening in the states. FEMA officials also credited the collaboration
     between the federal government and state and local governments through various
     working groups and task forces with helping to bring together different
     perspectives. An example of collaboration is the emergency planning guide
     Comprehensive Preparedness Guide 101, which PNP developed in coordination
     with state and local governments. The guide, finalized in March 2009, provides
     response and recovery planning guidance to state, territorial, tribal, and local
     governments.

Continuing Concerns
     The Post-Katrina Act reaffirmed FEMA’s mission and set forth requirements that
     remain to be completed, including the development of a strategy to integrate
     prevention, response, and recovery efforts. Despite the important role of
     individuals and communities in preparing for a disaster, FEMA faces numerous
     challenges in measuring the effectiveness of its efforts to enhance individual and
     community preparedness.




       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                    Page 14 

Coordination and Support 





    Background
         Following the terrorist attacks of September 11, 2001, efforts were undertaken to
         develop a national planning framework for emergency management. The result
         was the creation of the National Response Plan. The National Response Plan was
         used in response to Hurricane Katrina, but it fell far short of the seamless,
         coordinated effort that had been envisioned. Problems ranging from poor
         coordination of federal support to confusion about the roles and authorities of
         incident managers to inadequate information sharing among responders plagued
         the response to this catastrophic disaster.

         DHS issued the National Response Framework (NRF) in January 2008 to replace
         the National Response Plan. The NRF is intended to guide how the Nation
         conducts all-hazards response and describes key lessons learned from hurricanes
         Katrina and Rita, focusing particularly on how the federal government is
         organized to support communities and states in catastrophic incidents.

         To determine FEMA’s readiness to support communities and states in response to
         a future catastrophic disaster, we reassessed the critical components evaluated in
         our 2008 report:

            •	 Implement the NRF and specific operations plans;
            •	 Clarify the roles, responsibilities, and authorities of the Principal Federal
               Official (PFO) and Federal Coordinating Officer (FCO); and
            •	 Provide law enforcement access to FEMA records in support of
               Emergency Support Function-13 (ESF-13), Public Safety and Security.




           FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                        Page 15 

           Critical Components
                   Implement the NRF and specific operations plans (Modest) – The NRF was
                   implemented in March 2008, but federal operations plans that describe detailed
                   resource, personnel, and asset allocations necessary to respond to incidents
                   representing the gravest dangers facing the United States have not yet been
                   completed.

                   Since superseding the National Response Plan, the NRF has been used in more
                   than 160 presidentially declared disasters and emergencies. FEMA includes the
                   NRF Resource Center on its website to help stakeholders across the Nation
                   understand domestic incident response roles, responsibilities, and relationships in
                   order to respond more effectively to any type of incident. The Resource Center
                   includes documents and guides pertaining to the National Incident Management
                   System, the support annexes, briefings, and job aids. According to FEMA
                   officials, the NRF will undergo a scheduled review this year and be updated in
                   2011 to include lessons learned and best practices.

                   The NRF describes planning as the cornerstone of national preparedness and a
                   critical element to respond to a disaster or emergency. It also lists 15 National
                   Planning Scenarios that represent a minimum number of credible scenarios
                   depicting the range of potential terrorist attacks and natural disasters and related
                   impacts facing our Nation. Operations plans for these scenarios are particularly
                   important because they identify detailed resources, personnel, assets and specific
                   roles, responsibilities, and actions for each federal department and agency
                   responding to an incident or emergency. Our recent audit of federal incident
                   management planning efforts determined that although planning has progressed
                   for certain scenarios, much work remains to complete operations plans for all 15
                   scenarios.10 Moreover, a senior DHS official said that planning was put on hold
                   in July 2009 owing to the review of Homeland Security Presidential Directive–8
                   by the Domestic Readiness Group and National Security Council.

                   Clarify the roles, responsibilities, and authorities of the PFO and FCO
                   (Substantial) – FEMA has made progress in clarifying the roles of key senior

10
     DHS Progress in Federal Incident Management Planning (OIG-10-58), March 2009.

                     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                    Page 16 

                   federal officials who typically may be deployed with a federal incident
                   management team. The NRF describes the roles of both the PFO and FCO and
                   their responsibilities and authorities during an incident. It underscores that the
                   PFO does not have directive authority over an FCO or any other federal or state
                   official. Rather, “the PFO promotes collaboration and, as possible, resolves any
                   Federal interagency conflict that may arise.” It also underscores that the FCO is
                   specifically appointed by the President to coordinate federal support in the
                   response to and recovery from emergencies and major disasters by executing
                   Stafford Act authorities, including commitment of FEMA resources and the
                   mission assignment of other federal departments or agencies. To further clarify
                   that the FCO is the primary federal representative with whom the state, tribal, and
                   local response officials interface, Congress included in the DHS Appropriations
                   Act of 2010 (P.L. 111-83) prohibitions on the use of funds for any position
                   designated as a PFO for Stafford Act–declared disasters or emergencies. It is
                   important to note, however, that the DHS Secretary retains the authority to
                   appoint a representative who functionally reports through the FCO; however, the
                   NRF has not yet been updated to reflect this clarification. Additionally, FEMA
                   Administrator Fugate, in testimony on May 6, 2010, declared that DHS will
                   follow existing federal law and no longer appoint PFOs in disasters and
                   emergencies that fall under the Stafford Act. Further, the department will not
                   object to keeping the prohibition against such appointments in law.11 In August
                   2010, FEMA reported that it is no longer referring to incident commanders or
                   team leaders as PFOs.

                   Provide law enforcement access to FEMA records (Substantial) – Since our last
                   assessment, FEMA has made progress in improving law enforcement access to its
                   disaster recovery assistance files by updating its system-of-records notice relating
                   to FEMA disaster recovery assistance files. However, the protocols, procedures,
                   and processes for facilitating law enforcement access to these records are not fully
                   in place.

                   To remedy information-sharing problems encountered following Hurricane
                   Katrina and to facilitate law enforcement access to FEMA disaster recovery
                   assistance files for investigating fraud, locating missing children, and identifying
                   the whereabouts of sex offenders and fugitive felons, FEMA executed agreements
                   with the Department of Justice, including the Federal Bureau of Investigation and
                   U.S. Marshals Service.12 Additionally, in November 2007 FEMA appointed a

11
   Testimony of W. Craig Fugate, FEMA Administrator, at the hearing, “Priorities For Disasters and Economic
Disruption: The Proposed FY 2011 Budgets for FEMA and the Economic Development Administration” before the
Subcommittee on Economic Development, Public Buildings, and Emergency Management, Committee on
Transportation and Infrastructure, United States House of Representatives. Washington, DC, May 6, 2010.
12
   These agreements remain in effect, and in September 2009, FEMA updated its system-of-records notice for its
disaster recovery assistance files to expand access to “appropriate federal, state, territorial, tribal, local, international,
or foreign law enforcement authority or other appropriate agency charged with investigating or prosecuting such a
violation or enforcing or implementing a law, rule, regulation, or order, so long as such disclosure is proper and
consistent with the official duties of the person receiving the information.”

                      FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                          Page 17 

     law enforcement advisor to the administrator to fill a position created by the Post-
     Katrina Act. The advisor is to provide FEMA with a law enforcement perspective
     on agency plans and policies and support FEMA’s growing interaction with law
     enforcement associations. Although FEMA’s law enforcement advisor was aware
     of the agreements executed in 2006 and 2007 with the Department of Justice, he
     said he would not be involved in any future policy review unless specifically
     asked by FEMA’s Office of Chief Counsel.

     FEMA officials told us that they are 90% complete with establishing the
     protocols, procedures, and processes for providing appropriate law enforcement
     access to FEMA disaster recovery assistance records, to include Interagency
     Security Agreements with the Department of Justice and others needing access.
     FEMA anticipates that standard operating procedures will be in place by the end
     of this fiscal year.

Continuing Concerns
     Federal operations plans for all 15 National Planning Scenarios are still needed
     because they guide other preparedness activities and contribute to the unity of
     effort by providing a common blueprint for activity in an emergency. We
     consider completion of these plans, particularly by agencies designated in the
     NRF as coordinators or primary agencies, as a foundational element for both
     preparedness and response. Additionally, FEMA should update the NRF to
     remedy confusion about the role, authority, and responsibilities of the PFO and to
     ensure that all NRF stakeholders are aware of the intent of Congress. Finally, it is
     important that the FEMA law enforcement advisor and his staff be kept aware of
     and regularly consulted on the execution of future law enforcement agreements
     and FEMA’s implementation of protocols, procedures, and processes to provide
     access to appropriate law enforcement entities.




       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                    Page 18 

Emergency Communications 





    Background
         Disaster emergency communication is the means of transmitting and receiving
         voice, data, and video messages; information; and images critical to the
         management of an incident in which communications infrastructure has been
         abnormally impacted or lost. The ability of the disaster response community to
         communicate during an incident is essential to successful response and recovery
         efforts. It is generally recognized that the inability to communicate effectively
         was a major impediment to operations following the September 11, 2001 attacks
         and Hurricane Katrina. Critical emergency communications areas include the
         ability to maintain communications in the disruptive environment of catastrophic
         disasters (continuity), the ability to communicate across different organizations
         (interoperability), and the system’s ability to handle the increased demand that
         often accompanies disasters (capacity).

         Many agencies have a role in emergency communications. The NRF’s
         Emergency Support Function for Communications (ESF-2) identifies eight federal
         agencies with primary or supporting roles. DHS and other federal agencies have
         recently developed strategic guidance and pursued significant efforts, such as the
         National Emergency Communications Plan and the Emergency Communications
         Preparedness Center. The Federal Communications Commission (FCC), in
         conjunction with DHS, has been working to establish a nationwide interoperable
         network to increase emergency responders’ communications capacity.

         Three organizational components within DHS are responsible for emergency
         communications: (1) the National Protection and Programs Directorate’s Office
         of Emergency Communications; (2) the Science & Technology Directorate; and
         (3) FEMA’s Response Directorate’s Disaster Emergency Communications
         Division. In the past, there was confusion over which of these three elements led
           FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                        Page 19 

                    DHS’ efforts in this area. In July 2009, Secretary Napolitano designated the
                    Office of Emergency Communications to lead DHS’ efforts to advance
                    interoperable emergency communications. Notwithstanding the recent
                    designation, FEMA has important responsibilities in this area.

                    This report focuses on FEMA’s areas of responsibility. Title 6 of the U.S. Code
                    directs FEMA to provide funding, training, exercises, technical assistance,
                    planning, and other assistance to build tribal, local, state, regional, and national
                    communications capabilities to respond to a natural disaster, act of terrorism, or
                    other manmade disaster.13 FEMA’s Office of National Preparedness and
                    Protection, Grants Program Directorate is responsible for administering the
                    Interoperable Emergency Communications Grant Program. Consequently, we
                    updated our criteria from the 2008 report to assess FEMA’s progress in the
                    following critical areas:
                         •	 Coordinate communications support for state, local, and tribal responders
                            during Stafford Act incidents;
                         •	 Manage the deployment and operation of communications assets; and
                         •	 Manage emergency communications grants.




           Critical Components
                    Coordinate communications support for state, local, and tribal emergency
                    responders during Stafford Act incidents (Substantial) – FEMA’s Disaster
                    Emergency Communications Division of the Response Directorate has been
                    actively coordinating federal communications support for state, tribal, and local
                    responders. The Disaster Emergency Communications Division is working with
                    the National Communications System to revise the overarching ESF-2 standard
                    operating procedures. Once the revision has been finalized, the division will
                    revise its internal standard operating procedures to align with the ESF-2 standard
                    operating procedures. FEMA officials said that coordination between the two
                    offices is a continuous process with frequent meetings. However, there continues
                    to be some confusion among the Disaster Emergency Communications Division,
13
     Title 6 U.S.C., sections 313(b)(2)(G); 314(a)(7); and 579(c)(1).

                       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                         Page 20 

the National Communications System, and other federal ESF-2 partners. This
was evident during disaster response operations in American Samoa.

FEMA recently entered into an interagency agreement with the FCC to provide
incident-area impact analysis in the immediate aftermath of an incident. FEMA
can mission assign the FCC to deploy equipment and technicians to disaster areas
to identify commercial, public safety, and critical infrastructure communications
outages. Using this information, ESF-2 can coordinate the restoration of these
communications systems. Identifying these outages is of vital importance to
FEMA in ensuring that public welfare and evacuation information is disseminated
to the disaster area in a timely and accurate manner.

Recognizing the importance of a rapid response to an incident, FEMA has
developed 11 pre-scripted mission assignments with the FCC, the U.S. Coast
Guard, the Department of Defense, the National Communications System, and the
U.S. Forest Service. The U.S. Coast Guard has agreed to provide mobile
communication teams to support first responders and to coordinate initial
operations in response to a disaster. The U.S. Forest Service will provide
telecommunications equipment and personnel to support response operations, and
the Department of Defense will provide 24-hour voice, data, and video
communications solutions. These pre-scripted mission assignments provide
FEMA with the communications equipment and personnel necessary for rapid
response to an incident.

Working with federal, state, tribal, and local responders, FEMA helped to
establish in each of its ten regions the congressionally mandated Regional
Emergency Communications Coordination Working Groups, which are headed by
local responders and consist of their federal, state, and local counterparts. The
working groups assess the status of local emergency communications systems and
report annually to federal stakeholders. FEMA told us that nine regions have
completed their annual reports. When all reports are complete, FEMA will
compile the submissions into a national report. FEMA is also assisting regional
and state jurisdictions to develop emergency communications plans that allow
FEMA to be better prepared to pre-position and deploy needed communications
assets during catastrophic incidents. To date, 27 states and 4 regions have
emergency communications plans.

FEMA has participated in multiple emergency communications exercises. FEMA
officials said that they recently participated in an interoperable radio exercise with
the U.S. Secret Service; a joint exercise with the Transportation Security
Administration and the U.S. Army using the Military Affiliate Radio System as a
backup in case of widespread devastation, as occurred after Hurricane Katrina;
and an exercise with the U.S. Coast Guard. FEMA will also participate in the
2011 National Level Exercise focusing on a catastrophic earthquake in the New
Madrid Seismic Zone. Before the exercise, states will provide information on the
types of communications assets they own. FEMA will conduct a scenario-based

  FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                               Page 21 

impact assessment using the information provided and present the assessment
results to the states so they can exercise based on the results. The Regional
Emergency Communications Coordination Working Groups will work with state
and local representatives to identify continuity exercises within the region that
include communications as a component. Finally, FEMA recently participated in
an ESF-2 exercise that simulated operations during the response and recovery
phases after an earthquake in Salt Lake City, Utah. Participants included DHS;
the Department of Defense; the General Services Administration (GSA); the U.S.
Forest Service; and state, county, and city officials. FEMA officials said that the
exercise provided a better understanding of the roles, capabilities, and authorities
of, and coordination with, ESF-2 departments and agencies, and state and local
agencies and officials.

Manage the deployment and operation of communications assets (Substantial) –
FEMA has effectively deployed communications assets to the state and local
emergency community through the Mobile Emergency Response Support
(MERS) detachments. MERS detachments are comprised of trained professionals
and specialized equipment, including interoperable high frequency, very high
frequency, ultra high frequency, and 700/800 megahertz communications
systems, as well as satellite systems. MERS communications assets can establish
or reestablish connectivity with public safety wireless systems and command and
control networks. MERS detachments can also interconnect and wire facilities
within the disaster region and install computer, telephone, and video networks.

MERS detachments have been deployed in connection with major incidents
almost continuously over the past year. Domestically, detachments deployed to
several states, including most recently to North Dakota and South Dakota. During
the international response effort in Haiti, FEMA sent several detachments to
support urban search and rescue teams and other responders. MERS detachments
also deployed in response to a tsunami in American Samoa and a typhoon in
Guam.

Although MERS deployments have been successful, there have been some minor
concerns. For example, during the deployment to American Samoa, there was
confusion regarding who could contact MERS assets for information. FEMA is
addressing this question with the National Communications System and its ESF-2
partners. In the after-action report for the Haiti deployment, FEMA identified the
need for enhanced logistical support for deployed MERS detachments,
specifically the acquisition of appropriate portable shelter equipment, and the
need for updated policy and procedures related to the movement of FEMA assets
outside the continental United States.

Manage emergency communications grants (Moderate) – FEMA has made
progress in managing emergency communications grants to enhance state and
local capabilities. From FY 2004 through FY 2008, the last year for which
complete figures are available, DHS awarded more than $3 billion in grants to

  FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                               Page 22 

     enhance state and local interoperable communications efforts. In addition, FEMA
     is administering, on behalf of the Department of Commerce, the Public Safety
     Interoperable Communications Grant Program, which is funded through proceeds
     from the auction of analog television frequency spectrum. This grant program,
     totaling almost $1 billion, is designed to improve state and local public safety
     agencies’ emergency communications. DHS has provided technical assistance
     and guidance to states and territories to develop Statewide Communications
     Interoperability Plans, which are a requirement for receiving grant funds. By
     April 2008, all 56 states and territories had a DHS-approved plan.

     To measure the effectiveness of grants, in 2008 FEMA developed a Cost to
     Capability initiative. Following an agency-wide moratorium on new requests for
     information from state and local governments, the Cost to Capability initiative
     was suspended in November 2009. Therefore, there is currently no system in
     place to measure the impact of grants. However, FEMA’s Reporting
     Requirements Working Group is developing a data collection system intended
     eventually to measure the effectiveness of several programs, including
     communications grants.

Continuing Concerns
     Despite a robust program to coordinate and deploy communications support for
     federal, state, tribal, and local responders during Stafford Act incidents, FEMA
     has yet to field a system to measure the impact of communications-related grants.




       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                    Page 23 

Logistics
 





                             Modest Progress       Moderate Progress




         Limited or No Progress                                    Substantial Progress




     Background
             The Logistics Management Directorate (LMD) is the agency’s major program
             office responsible for policy, guidance, standards, execution, and governance of
             logistics support, services, and operations. Its mission is to plan, manage, and
             sustain the national logistics response and recovery operations in support of
             domestic emergencies and special events. LMD is organized around four core
             competencies:

                 •    Logistics Operations
                 •    Logistics Plans and Exercises
                 •    Distribution Management
                 •    Property Management

             FEMA’s logistics responsibilities include acquiring, receiving, storing, shipping,
             tracking, sustaining, and recovering commodities, assets, and property.

             LMD’s ability to track commodities is one of the keys to fulfilling its mission.
             The disasters of 2004 and 2005 highlighted inconsistencies stemming from
             multiple, independent computer and paper-based systems and highlighted a need
             for standardized policies and procedures.

             After Hurricane Katrina, FEMA identified areas for improving its end-to-end
             supply chain and established the Total Asset Visibility (TAV) program to
             implement processes and automate the flow of commodity information.




               FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                               Page 24 

     FEMA management is focused on improving the logistics core competencies to a
     level that will respond effectively and efficiently to a catastrophic disaster. We
     assessed two critical areas to measure FEMA’s progress to:

        •	 Establish total asset visibility through the Logistics Supply Chain 

           Management System (LSCMS); and 

        •	 Establish a national supply chain strategy.


        Establish total asset visibility
                                                 Establish national supply chain
        through the Logistics Supply
                                                     strategy (New Rating)
         Chain Management System




                  Moderate                                 Moderate


Critical Components
     Establish total asset visibility through the Logistics Supply Chain Management
     System (Moderate) – Prior to 2004, FEMA had invested in multiple systems to
     support its unique inventory needs, but they were not integrated and were
     duplicative. In response, FEMA began to implement the TAV program in FY
     2005. Since implementation, TAV has undergone two phases of development.

     TAV-Phase 1 was a pilot program that involved improving the visibility of select
     assets for two FEMA regions and distribution centers supporting the hurricane-
     prone Gulf Coast states. This phase of TAV was deployed in time to support the
     2006 hurricane season and to allow FEMA to begin integrating modern logistics
     processes and applications with existing FEMA processes. At the end of FY
     2009, FEMA transitioned from TAV-Phase 1 to the LSCMS (TAV-Phase 2).
     LMD implemented a number of LSCMS milestones during the current fiscal
     year, including:

        •	 Wireless Enterprise Procurement - wireless package;
        •	 Warehouse Management - functional design; and
        •	 Trading Partner Management - development.

     According to FEMA, every element of LSCMS is fully functional but not
     completely implemented. The entire application is scheduled to be implemented
     by the end of calendar year 2010.



       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                           Page 25 

LSCMS is expected to be interoperable with federal, state, county, municipal,
tribal government, and nongovernmental organizations’ disaster management
supply chain processes and systems. The final product and implementation will
encompass all aspects of FEMA operations, including inventory management,
requisitions, order management, fulfillment, shipping, transportation
management, situational awareness and reporting, and retrograde processes.

New LSCMS initiatives include change management, training, acceptance, and
accountability. Officials said that FEMA is addressing change management
across all ten regions by increasing communications throughout FEMA and by
providing role-based training.

Establish a national supply chain strategy (Moderate) – During a disaster, when
state and local governments’ capabilities are exceeded, the state may request
FEMA’s assistance. The specific type and quantity of commodities and support
assets needed will vary, but experience indicates that some common needs include
water (usually bottled), emergency meals, cots, blankets, tarps, and generators.

FEMA has determined that pre-positioning commodities is neither logistically
prudent nor an effective use of taxpayer funds. FEMA has focused on eliminating
potential waste by:

   •	 Changing LMD business practices and procedures;
   •	 Strengthening public and private sector solutions and relationships with
      partners such as the Defense Logistics Agency, U.S. Army Corps of
      Engineers, American Red Cross, and GSA; and
   •	 Implementing a continuous process review and developing standard
      operating procedures at all FEMA Distribution Centers.

To develop a more responsive, flexible, and sustainable supply chain management
strategy, LMD established the following workgroups:

   •	 The Distribution Management Strategy Working Group (DMSWG)
      supports LMD as the National Logistics Coordinator, which collaborates
      with other federal agencies, public and private sector partners,
      nongovernmental organizations, and other stakeholders, ensuring a fully
      coordinated and effective service and support capability. The outcomes
      associated with this effort include addressing an excess capacity
      distribution strategy.
   •	 The Resource Management Group, a component of the DMSWG, focuses
      on coordinating collaborative logistics and sourcing decisions.
   •	 The Commodity Group, also a component of the DMSWG, focuses on
      sourcing strategy and defining inventory levels throughout the logistics
      disaster response partner community.


  FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                               Page 26 

                   FEMA supported the United States response to the 2010 Haiti earthquake within
                   72 hours and provided water, meals, cots, blankets, tarps, plastic sheets and Joint
                   Field Office kits. FEMA coordinated and moved more than 190 tractor-trailers of
                   supplies to support the disaster response.

           Continuing Concerns
                   FEMA personnel said that two of the primary challenges to improving the
                   LSCMS business process are retaining sufficient staffing and implementing
                   change management across all ten regions. Although LSCMS has been available,
                   the primary methods of information transfer continued to be email, phone calls,
                   and spreadsheets. Customer satisfaction surveys from 2008 and 2009 show low
                   systems usage among logistics professionals in the field.

                   FEMA has improved its logistics systems and processes; however, LSCMS is not
                   yet fully implemented and may not be fully effective until disaster response
                   personnel have adopted all aspects of the new business process, as discussed in
                   our recent report.14




14
     FEMA’s Logistics Management Process for Responding to Catastrophic Disasters (OIG-10-101), July 2010.

                      FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                     Page 27 

Evacuations 





     Background
          Emergency evacuations are the responsibility of state and local governments.
          However, if state and local emergency management systems become
          overwhelmed, FEMA has several specific responsibilities. According to the
          National Response Framework’s Mass Evacuation Incident Annex, FEMA will:
          (1) primarily augment state, tribal, and local government plans and operations;
          and (2) be capable of implementing a federally supported or federalized
          evacuation. FEMA is responsible for providing direction, guidance, and technical
          assistance on state and local evacuation plans that contain integrated information
          on transportation operations, shelters, and other elements of a successful
          evacuation. FEMA is also required to work with state, tribal, and local authorities
          to support contraflow planning, where the normal flow of traffic is reversed to aid
          in an evacuation, and is responsible for ensuring that adequate resources are
          available for evacuation efforts.

          Our 2008 report assessed two specific initiatives involving evacuations: (1) the
          Gulf Coast Mass Evacuation Capability Enhancement Initiative; and (2) the Gap
          Analysis Program. For this report, we expanded our focus to include FEMA’s
          full responsibilities and authorities outlined in the Post-Katrina Act. We reviewed
          FEMA’s efforts to:

             •	 Augment state, tribal, and local emergency evacuation plans and
                operations; and
             •	 Establish the capability to implement a federally supported or federalized
                evacuation.


            FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                         Page 28 

Critical Components
     Augment state, tribal, and local emergency evacuation plans and operations
     (Moderate) – We assessed FEMA’s progress in this area, focusing on the Gulf
     Coast Mass Evacuation Capability Enhancement Initiative, the Gap Analysis
     Program, the Catastrophic Disaster Planning Initiative, and evacuation planning
     workshops sponsored by FEMA. Through these initiatives and others, FEMA has
     worked with at least 35 states and territories on evacuation planning since 2008.

     FEMA launched the Gulf Coast Mass Evacuation Capability Enhancement
     Initiative in 2007 to develop an organized plan for evacuating the Gulf Coast
     region and to have state-to-state agreements in place for transporting and
     sheltering evacuees. Evacuations in response to Hurricane Gustav in 2008
     demonstrate that FEMA’s efforts are having an impact. During the response,
     15,000 Louisiana residents were transported by bus to shelters in evacuee host
     states; 2,025 were relocated by rail to Tennessee; and 5,050 were flown to
     Arkansas, Kentucky, or Tennessee.

     The initiative has continued with the expanded goal of developing regional
     hurricane operations plans and federal support plans for several states. FEMA
     officials provided the Texas and Louisiana Federal Support Plans, the Arkansas
     Aviation Operations Plan, the South Carolina Motor Coach Evacuation Concept
     of Operations Plan, and the FEMA Region VI 2009 Hurricane Contingency Plan
     as evidence of progress in this area.

     The Gap Analysis Program was designed to improve operational readiness by
     reducing response and recovery capability shortfalls throughout all levels of
     government. The 2008 Gap Analysis, which included an analysis of evacuation
     capabilities in 19 states, the District of Columbia, Puerto Rico, and the U.S.
     Virgin Islands, indicated that 5 states have no gaps and would not require federal
     assistance. FEMA is working with other states to mitigate gaps that were
     identified. For example, one state needs federal assistance to evacuate 17,000
     residents with special medical needs. FEMA, the Department of Defense, and the
     state developed a draft Air Evacuation Plan to mitigate this gap.

       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                    Page 29 

                The 2009 Gap Analysis is not as informative as the 2008 analysis, because data
                collection was suspended in response to a moratorium issued by the FEMA
                Administrator, as discussed in previous sections. FEMA officials said that states
                can now use their tool of choice to assess capabilities. FEMA is continuing to use
                previously collected data to determine evacuation staffing estimates, and FEMA’s
                regional planners continue working with the states.

                FEMA’s Catastrophic Disaster Planning Initiative is designed to conduct analyses
                and develop plans for mass evacuation, sheltering, and response to catastrophic
                disasters. In April 2009, GAO reported that FEMA had engaged in significant
                planning efforts regarding threats that are specific to certain regions, such as
                hurricanes and earthquakes, through this initiative, but that planning efforts were
                ongoing and had not been concluded.15 Examples of catastrophic disaster plans
                that incorporate evacuation plans include Northern California and Southern
                California Catastrophic Earthquake Plans, a Hawaii All-Hazards Concept Plan,
                and a New Madrid Seismic Zone Catastrophic Earthquake Contingency Plan.

                FEMA officials said that planning for the New Madrid Seismic Zone Catastrophic
                Earthquake will be complete this year. Planning efforts included earthquake
                response capability assessments for each of the eight New Madrid Seismic Zone
                states and planning sessions with the counties and states through FEMA-
                supported workshops. Representatives of federal, state, tribal, local, and county
                emergency management and responder organizations, as well as the private and
                nonprofit sectors, participate in these workshops.

                FEMA has also conducted a series of workshops in support of evacuation
                planning. For example, in January 2009 FEMA held a Gulf Coast contraflow
                evacuation workshop for federal and state entities to review hurricane contraflow
                evacuation operations throughout the Gulf Coast region. FEMA also plans to
                conduct a workshop in 2010 to support state and regional planning efforts for a
                mass evacuation.

                Establish the capability to implement a federally supported or federalized
                evacuation (Moderate) – A large-scale federally supported evacuation has not
                been needed since Hurricane Katrina, but FEMA has provided evacuation support
                to state, tribal, and local governments during recent incidents, including
                hurricanes Gustav and Ike. FEMA is also finalizing a national system for states to
                track evacuees. Additionally, FEMA published a Mass Evacuation Incident
                Annex in June 2008. However, the Operational Supplement to the Annex that is
                intended to provide additional guidance for mass evacuations has not yet been
                finalized.


15
  National Preparedness, FEMA Has Made Progress, but Needs to Complete and Integrate Planning, Exercise, and
Assessment Efforts (GAO-09-369), dated April 2009.

                   FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                  Page 30 

     According to a senior FEMA official, the Gulf Coast Evacuation Plan was
     successfully implemented in 2008 during Hurricane Gustav to evacuate residents
     from New Orleans using air, bus, and rail transportation. Residents considered
     this evacuation more orderly and better organized than the evacuation for
     Hurricane Katrina. Former FEMA Administrator David Paulison pointed out that
     FEMA had altered its procedures to avoid repeating errors made during Hurricane
     Katrina. During Katrina, buses and ambulances did not arrive until after the
     storm made landfall. FEMA now has in place prearranged contracts for
     ambulances and other emergency transportation services.

     A senior FEMA official reported to Congress in February 2009 that FEMA is now
     much better prepared to coordinate medical special needs evacuations with the
     Department of Defense, the Department of Health and Human Services, and state
     governments. For Hurricane Gustav, FEMA reported that more than 600
     prearranged ambulances were available to Louisiana, and that special Department
     of Defense aircraft were deployed to help evacuate critically ill patients. FEMA
     also activated its ground and air ambulance evacuation services contract and its
     contract with Amtrak. For Hurricane Ike, federal assets were standing by
     prelandfall to support air evacuations. More than 400 Transportation Security
     Administration personnel also deployed to assist with planned evacuations.

     FEMA began developing a National Mass Evacuation Tracking System to track
     individuals as they arrive at or depart from certain locations, such as shelters.
     However, funding for system development was cut in 2008 and development did
     not resume until the spring of 2009. Several states and cities are testing the
     system, and FEMA officials stated that it will be ready by the 2010 hurricane
     season. FEMA is offering the system to states free of charge; however, FEMA
     cannot compel states to use the system.

Continuing Concerns
     FEMA has made progress in both critical areas, but its preparedness to support a
     regional or large-scale evacuation outside the Gulf region remains a concern.
     FEMA has augmented state and local evacuations planning and operations and
     enhanced its own capabilities to implement a federally supported evacuation.
     However, FEMA officials said that they need more staff and funding for the
     Planning Division, and we are concerned that the Operational Annex to the Mass
     Evacuation Incident Annex in the National Response Framework has not been
     completed.




       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                    Page 31 

Housing 





    Background
            In a presidentially declared disaster, FEMA administers the temporary housing
            response for individuals and households. Disaster housing assistance may include
            the use of financial resources and direct support from FEMA and other federal
            agencies; local, tribal, and state governments; and voluntary agencies. In the past,
            FEMA was criticized for its inability to provide immediate, short-term housing
            assistance to disaster survivors and to transition people needing it to more
            permanent forms of housing. As a result of congressional legislation, FEMA
            developed and released the National Disaster Housing Strategy to guide future
            disaster housing assistance efforts.

            Since our 2008 report, FEMA has made strides toward implementing a
            comprehensive strategy for managing disaster housing resources. However,
            limited federal, state, and agency coordination; constant housing plan revisions;
            and limited federal funding have hindered final National Disaster Housing
            Strategy implementation efforts.

            Overall, FEMA disaster housing progress is rated as moderate; however, we
            anticipate additional progress as FEMA continues to refine and implement its
            future housing strategy and mission. We reviewed FEMA’s current progress in
            three critical housing components:

               •	 Develop a National Disaster Housing Strategy;
               •	 Develop plans to purchase, track, and dispose of temporary housing units;
                  and
               •	 Strengthen state and local commitment to house affected citizens.

              FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                           Page 32 

           Critical Components
                   Develop a National Disaster Housing Strategy (Moderate) – In response to the
                   Post-Katrina Act, FEMA released the National Disaster Housing Strategy in
                   January 2009. The strategy was developed as a combined effort of FEMA and its
                   federal partner agencies, and incorporated feedback from volunteer organizations,
                   private sector businesses, and individuals. The strategy summarizes FEMA’s
                   disaster housing process, including sheltering and housing capabilities, principles,
                   and policies. It outlines a number of potential housing programs that can assist
                   disaster survivors in finding interim housing. In September 2009, we issued a
                   report stating that the National Disaster Housing Strategy is a positive yet interim
                   step forward.16

                   The strategy has several components. First, it requires the creation of a National
                   Disaster Joint Housing Task Force. The task force is charged with developing a
                   Disaster Housing Implementation Plan that translates the strategy’s goals into
                   measurable actions and milestones; a Comprehensive Concept of Operations that
                   integrates and synchronizes existing housing capabilities across all levels of
                   government, nongovernmental organizations, and the private sector; and a
                   Catastrophic Concept of Operations that addresses the unique requirements for a
                   large-scale disaster. A current example of a unique disaster requirement would be
                   the American Samoa permanent housing construction pilot program, which was
                   developed as a result of the September 29, 2009 tsunami that struck American
                   Samoa.

                   OMB approved the Disaster Housing Implementation Plan on March 16, 2010.
                   The Comprehensive Concept of Operations is scheduled to be completed and
                   released immediately following the release of the National Disaster Recovery
                   Framework.

                   FEMA has also developed a Non-congregate Housing Program that uses hotels
                   and motels or federally owned unoccupied housing units as a sheltering resource.

16
     Management Advisory Report: FEMA’s Housing Strategy for Future Disasters (OIG-09-111), September 2009.

                     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                    Page 33 

                Each option has unique challenges. FEMA has a contract to place disaster
                survivors in an average of 1,250,000 hotel or motel rooms per night for an
                extended period. The program allows for sheltering a maximum of 500,000
                disaster-affected households after a catastrophic event. However, the program’s
                success depends on leveraging the full capabilities of the federal government
                along with state and local governments, the private sector, community members,
                and the disaster survivors. An additional constraint to this program is the
                unknown readiness and availability of FEMA-identified hotel/motel sheltering
                option components. Nationwide, FEMA has identified approximately 46,715
                federally owned unoccupied housing units. These units are readily available;
                however, this option has potential unit habitability and readiness concerns.
                Disaster survivors must be willing to relocate to areas where housing is available,
                and states must agree to accept these survivors.

                Develop plans to purchase, track, and dispose of temporary housing units
                (Moderate) – Since 2008, FEMA has developed extensive plans to purchase,
                track, and dispose of temporary housing units.

                Numerous concerns arose over FEMA’s use of travel trailers after Hurricane
                Katrina. In March 2009, FEMA testified that it will consider the use of travel
                trailers only as a last resort.17 However, FEMA will consider a state’s specific
                request for travel trailers during extraordinary disaster conditions when no other
                forms of interim housing are available. FEMA managers will apply the following
                conditions: (1) Travel trailers may be authorized only for use on private property;
                (2) FEMA will not authorize travel trailers for use in group sites; (3) FEMA will
                authorize travel trailer use for a maximum of 6 months’ occupancy, and only
                when the level of damage to the occupant’s predisaster dwelling can be repaired
                in less than 6 months; (4) FEMA will provide travel trailers that are within
                formaldehyde levels the state has determined to be acceptable; and (5) FEMA will
                provide units with air exchange controls that meet or exceed FEMA
                specifications.

                In light of the decision to consider travel trailers as a last resort housing option,
                FEMA has been assessing new and innovative forms of temporary alternative
                housing through several programmatic actions. In 2006, Congress appropriated
                $400 million for a FEMA-operated 4-year Alternative Housing Pilot Program.
                Through an interagency agreement with the Department of Housing and Urban
                Development, this program is designed to identify and evaluate better ways to
                house disaster survivors. For example, in Texas, FEMA has developed a housing
                unit that can be assembled in less than 10 hours and can be stored flat for reuse.


17
 Written testimony of Nancy Ward (then Acting Administrator of FEMA). The title of the hearing: “A New Way
Home: Findings from the Disaster Recovery Subcommittee Special Report and Working with the New
Administration on a Way Forward” before the Ad Hoc Subcommittee on Disaster Recovery, Committee on
Homeland Security and Governmental Affairs, United States Senate. Washington, DC, March 18, 2009.

                   FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                  Page 34 

                 A final report to Congress on the Alternative Housing Pilot Program is due
                 December 31, 2011.

                 In 2008, FEMA awarded provisional contracts to seven alternative housing
                 manufacturers to install temporary housing units for students attending classes at
                 FEMA’s National Emergency Training Center in Emmitsburg, MD. The
                 Recovery Division’s Joint Housing Solutions Group continues to monitor and
                 evaluate each unit for future suitability to house disaster survivors.

                 For FY 2010, FEMA has a baseline inventory of 4,000 ready-for-dispatch
                 temporary housing units. In January 2010, FEMA began an effort to sell more
                 than 101,000 excess temporary housing units through GSA online auctions.18
                 When the GSA auction closed on January 29, 2010, FEMA had sold most of its
                 excess inventory; however, bidders are still in the process of removing the
                 housing units. By the end of 2011, FEMA is scheduled to close all supporting
                 storage sites.

                 Strengthen state and local commitment to house affected citizens (Modest) –
                 Since 2008, FEMA has developed two approaches to strengthen how state and
                 local governments assist disaster survivors with temporary housing. However,
                 each approach has specific limitations, such as insufficient numbers of
                 experienced disaster housing staff, limited federal and state funding, and poor
                 coordination with state and local governments.

                 In its Disaster Housing Practitioner’s Guide, FEMA said that each state should
                 create and maintain a standing disaster housing taskforce. FEMA will assist
                 states by providing best practices information, operational guidance, and a
                 standardized housing plan template that can be tailored to unique disaster housing
                 needs. In 2007, the first State-Led Disaster Housing Taskforce was convened in
                 response to the California wildfires. FEMA sent headquarters-based subject
                 matter experts to provide technical support when disasters struck American
                 Samoa, Iowa, Louisiana, and Texas. However, FEMA has only limited
                 headquarters and regional staff to fully execute an expert-based disaster housing
                 mission for every disaster. Typically, states do not have disaster housing experts.
                 FEMA officials told us that additional federal funding is needed to develop the
                 federal and state disaster housing expertise.

                 Also, the Housing Strategy stated that when it is necessary to build temporary
                 group housing sites, state and local government are responsible for identifying
                 public land that is suitable for a group site or, when publicly owned land is
                 unavailable, for identifying other sites for FEMA to lease. In this case, FEMA
                 emphasizes the role of state and local governments in providing shelter for their

18
  In response to hurricanes Katrina and Rita in 2005, FEMA purchased 143,699 temporary housing units for a total
price of over $2.6 billion, an average of more than $18,000 per unit. As a result of the 2010 GSA auctions, more
than 101,000 of these excess units were sold at an average price of $1,309 per unit.

                    FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                    Page 35 

     residents. Given the current budget climate, some state and local governments
     may not fulfill these responsibilities; FEMA will need to encourage the state and
     local role in developing and implementing housing solutions.

Continuing Concerns
     Since 2008, FEMA has made moderate progress toward developing a
     comprehensive National Disaster Housing Strategy. However, we are concerned
     that FEMA has not clearly defined its roles and responsibilities with regard to the
     long-term housing needs of disaster survivors (i.e., beyond the standard 18
     months of assistance).




       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                    Page 36 

Disaster Workforce 





     Background
          The need for a trained, effective disaster workforce is one issue mentioned
          consistently in reports regarding FEMA’s response to Hurricane Katrina.
          FEMA’s disaster workforce consists mainly of reservists who serve temporarily
          during a disaster. FEMA struggled to provide adequate numbers of staff in
          response to Hurricane Katrina and did not have the automated support needed to
          deploy more than 5,000 disaster personnel on short notice. New hires did not
          receive adequate training during FEMA’s accelerated orientation process, and
          FEMA did not have a central training records management system. The shortage
          of qualified staff for key positions responding to Hurricane Katrina negatively
          impacted the effectiveness of FEMA’s response and recovery operation.

          The Post-Katrina Act provides for rebuilding FEMA’s permanent and reserve
          workforces through tools such as a strategic human capital plan, structured career
          paths, and recruitment and retention bonuses. The act also requires a plan to
          establish and implement a surge workforce, including an adequate number of
          trained personnel to meet specific response team capabilities.

          As FEMA and DHS have evolved, the disaster workforce structure and systems
          have not kept pace. Since 1992, FEMA has initiated 12 studies to look at the use
          and structure of its disaster workforce; however, FEMA has not implemented all
          of the recommendations from those studies.

          We reviewed two critical areas identified as weaknesses after Hurricane Katrina
          to assess FEMA’s efforts to:



            FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                         Page 37 

                      •	 Adopt a Strategic Human Capital Plan; and
                      •	 Manage the disaster workforce and integrate workforce management
                         tracking systems.




          Critical Components
                  Adopt a Strategic Human Capital Plan (Moderate) – In May 2008, FEMA
                  published the “Strategic Human Capital Plan 2008–2012,” which established
                  FEMA’s plans for staffing standards, a restructured workforce composition, new
                  core competencies, and professional development.19 This is FEMA’s first official
                  plan for managing, strengthening, and building a forward-leaning workforce. The
                  strategic plan includes five key strategic initiatives aimed at recruiting and
                  maintaining a strong, competent, and credible workforce:

                      •	   Understanding the composition and character of the workforce;
                      •	   Rightsizing the agency;
                      •	   Building core competencies;
                      •	   Training and professionally developing the workforce; and
                      •	   Building the culture of the new FEMA.

                  Our 2008 report stated that FEMA completed an assessment of its legacy Disaster
                  Assistance Employee program and published the report FEMA: A New Disaster
                  Reserve Workforce Model. The report included 25 recommendations, and FEMA
                  management identified 9 recommendations that would produce the greatest
                  positive near-term effects (see table 1). The remaining 16 recommendations
                  would be incorporated as a result of completing the first 9 or implemented over a
                  longer period.




19
     FEMA Strategic Human Capital Plan 2008–2012 (FEMA P-692), May 2008.

                    FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                  Page 38 

Table 1. Top Nine Recommendations from FEMA: A New Disaster Reserve
Workforce Model

     Recommendation                                          Status
     New Office of FEMA Reserves Organization                Completed
     Office of FEMA Reserves Management Positions            Completed
     Cross-Functional Strategic & Operational Plans          Completed
     Policy Development and Compliance                       Completed in Part
     Policy Communication and Development                    Completed in Part
     Processes
     Position Specific Training and Credentialing            Completed in Part
     Requirement
     Reserve Workforce Planning Tool                         Completed in Part
     Decision-making Structure                               Completed in Part
     Standard Reservists Levels                              Completed in Part
     Source: FEMA: A New Disaster Reserve Workforce Model.

In September 2008, Disaster Reserve Workforce Division staff established an ad
hoc working group with counterparts in the Transportation Security
Administration and the U.S. Citizenship and Immigration Services to develop a
concept of operations for the Surge Capacity Force described in section 624 of the
Post-Katrina Act. The first draft of the concept of operations was completed in
December 2008. Senior FEMA and DHS management have not approved the
draft plan.

Manage the disaster reserve workforce and integrate workforce management
tracking systems (Modest) – FEMA: A New Disaster Reserve Workforce Model
recommended that FEMA establish a director-level office to improve the
effectiveness and efficiency of professional operations and address disaster
reserve workforce challenges. In response to this recommendation, FEMA
launched the Disaster Reserve Workforce Division (DRWD) in FY 2008. A key
aspect of DRWD’s mission is to assist in credentialing and deploying FEMA’s
full-time workforce and Disaster Reserve Workforce. As of March 2009, the
Disaster Reserve Workforce consists of 21 cadres located in all 10 FEMA regions
and at FEMA headquarters. FEMA has 7,995 registered disaster reservists, of
whom 1,322 are immediately deployable.

In June 2008, DRWD launched an agency-wide credentialing effort, which
resulted in the creation of FEMA’s Credentialing Program. The program is
responsible for the design and implementation of a plan to standardize the
recruiting, training, and credentialing of FEMA’s Disaster Reserve Workforce. In
April 2009, FEMA developed the Agency-Wide Disaster Workforce
Credentialing Plan, which contains the required processes that all cadres must
implement in order to ensure that FEMA applies a consistent and fair process to


  FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                               Page 39 

                   credential each cadre member.20 Before the program was developed, disaster
                   workforce responsibilities and approaches were not standardized, resulting in
                   inconsistent quality and efficiency in delivery of services.

                   The Credentialing Program consists of 21 cadres. FEMA reported the following
                   results:

                       •	 Eleven cadres have a complete and approved Cadre-Specific Plan (CSP).
                          Five of these eleven cadres have migrated to the existing credentialing
                          framework;
                       •	 Six cadres have a complete CSP that awaits approval; and
                       •	 Four cadres have begun the initial planning in order to credential their
                          disaster workers under the FEMA Qualification System.

                   FEMA estimates that half of the Disaster Reserve Workforce will be credentialed
                   by the second quarter of FY 2012 and all will be fully credentialed by FY 2013.
                   Half of the full-time workforce will also be credentialed by FY 2013 and the rest
                   by FY 2014.

                   Even with the credentialing plans in place, training of newly hired disaster
                   professionals continues to be a major challenge. FEMA’s Emergency
                   Management Institute (EMI) has developed training courses consistent with the
                   requirements in the credentialing plans but is still relying on the old model of
                   training staff during deployment.21 FEMA attributes this to EMI’s training
                   schedule, which is booked one year in advance. To further address training,
                   FEMA is developing an orientation program and related materials to instruct
                   newly hired disaster staff on standards of conduct, ethics, Equal Employment
                   Opportunity, and other topics. FEMA expects to complete and disseminate the
                   Disaster Assistance Employee orientation program by the end of FY 2010.

                   DRWD uses the Automated Deployment Database (ADD) to identify and
                   maintain a record of the personnel deployed during disasters, with Web ADD
                   serving as its online interface. However, the use of Web ADD was suspended
                   because it did not adequately monitor employee deployment readiness, length of
                   deployment, or location, limiting FEMA managers’ ability to supervise the
                   Disaster Relief Workforce. The inability to manage deployment information
                   hinders the ability of FEMA staff to manage deployment and disaster activities.




20
     FEMA Agency-Wide Disaster Workforce Credentialing Plan (April 2009).
21
     EMI is FEMA’s training institution in Emmitsburg, MD.

                     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                    Page 40 

           Continuing Concerns
                   The DRWD is seeking to develop a new system to replace Web ADD and has
                   tasked a contractor with performing a functional requirements analysis. The
                   DRWD expects to have identified either a commercial-off-the-shelf or
                   government-off-the-shelf product by spring 2011.

                   Training courses consistent with the Credentialing Program will not be offered
                   until FY 2011, and the new-hire orientation program is still under development.
                   Deployed staff will have to rely on field training until EMI offers the new training
                   courses.

                   The FEMA workforce has undergone tremendous transformation stemming from
                   changes in national laws, policies, and mission focus. The workforce has also
                   experienced significant growth in size, workload, and composition to support
                   increasing demands, changing processes, and advancing technologies. As a
                   result, Congress determined that a baseline assessment of FEMA’s current federal
                   workforce, including all disaster reservists, was warranted. In the last quarter of
                   FY 2009, FEMA partnered with the Homeland Security Studies and Analysis
                   Institute (HSSAI) and launched an agency-wide Integrated Strategic Workforce
                   Planning Initiative to develop a capabilities-driven workforce planning effort
                   designed to create the FEMA of the 21st century and beyond. The HSSAI
                   assessment, which is the first phase of that initiative, assesses FEMA’s workforce
                   in both steady state (normal day-to-day operations) and disaster situations (when
                   responding to an active disaster).22 The results of this assessment were provided
                   to Congress in May 2010. We will continue to review and assess this important
                   initiative.




22
     HSSAI, Federal Emergency Management Agency Workforce Baseline Assessment (RP09-55-04), March 31, 2010.

                     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                   Page 41 

Mission Assignments 





        Background
                 FEMA is responsible for coordinating the urgent, short-term emergency
                 deployment of federal resources to address threats and for stewardship of the
                 associated expenditures from the Disaster Relief Fund. FEMA uses mission
                 assignments (MAs) to request disaster response support from other federal
                 agencies.23 Past audits and reviews of MAs have concluded that FEMA’s
                 management controls were generally not adequate to ensure that:

                     •	 Deliverables (missions tasked) met requirements;
                     •	 Costs were reasonable;
                     •	 Invoices were accurate;
                     •	 Federal property and equipment were adequately accounted for or
                        managed; and
                     •	 FEMA’s interests were protected.

                 In our 2008 report, of all the areas reviewed, this area needed the most
                 improvement. At that time, FEMA had initiated an ambitious project to
                 reengineer the processes, relationships, and resources involved in managing MAs.
                 An intra/interagency Mission Assignment Working Group (MAWG) was formed
                 to review MA processes and procedures and develop recommendations for the
                 management of MAs. This group developed processes, policies, and procedures
                 that have increased FEMA’s MA effectiveness.

23
  A mission assignment is a work order issued by FEMA to another federal agency that directs the completion of a
specific task to meet urgent, immediate, and short-term needs. The assigned federal agency must complete the
mission assignment within 60 days after the declaration, unless FEMA extends the authorized performance period.
Mission assignments can include a number of goods and services from a variety of agencies, ranging from
emergency meals and water to mobile communication teams and medical evacuation of patients.

                    FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                    Page 42 

                We reviewed three critical components to assess FEMA’s efforts to:

                     •	 Improve guidance for mission assignments (i.e., regulations, policies, and
                        operating procedures);
                     •	 Improve staffing and training; and
                     •	 Enhance management of mission assignments.




        Critical Components
                Improve guidance for mission assignments (Moderate) – FEMA has developed an
                intranet website for MAs that provides documents and guidance necessary to
                execute MAs during an emergency. It includes various reference materials, such
                as policies and procedures, MA authorities, and forms needed to execute MAs.

                The “Pre-Scripted Mission Assignment Catalogue” contains 237 pre-scripted
                MAs.24 An additional 64 are under development. Pre-scripted MAs provide
                standard “statements of work” and cost estimates developed before an actual
                emergency or disaster and are used to quickly execute MAs with other federal
                agencies. The pre-scripted MAs cover capabilities that are outside an agency’s
                regular or emergency authority, and involve known or frequently used resources.

                Not all MAs have pre-scripted language, as each disaster has unique
                requirements. FEMA developed a standard operating procedures manual for MAs
                that outlines policies, procedures, and processes used to collaborate with other
                federal agencies and organizations when responding to disasters. This manual is
                under revision; the previous version was never issued as final.

                Improve staffing and training (Modest) – In FEMA’s latest reorganization, MAs
                were assigned to the Facilities, Assets, and Contracts Management Branch in the
                Response Directorate. This Branch not only develops and manages pre-scripted

24
  Pre-scripted MAs are prearranged and preapproved agreements between FEMA and other federal agencies to (1)
expedite deployment of response assets and (2) allow agencies to be more proactive in moving personnel,
equipment, and supplies in anticipation of a disaster declaration.

                   FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                   Page 43 

                  MAs, but is also responsible for the Response Directorate’s contract oversight,
                  space and office move management, and equipment and supplies purchase
                  management. While FEMA has increased its MA staffing in the past few years, it
                  relies heavily on contractors to supplement staff during periods of high activity.

                  FEMA has developed employee task books for three MA positions (MA Manager,
                  MA Specialist, and MA Action Tracker). These task books are posted on
                  FEMA’s NRF site. FEMA’s training institute offers several courses that are
                  designed for FEMA MA workers and for federal partners often tasked through
                  MAs. However, due to budget constraints, recent course offerings have been
                  cancelled.

                  Previous reviews have recommended that FEMA establish and invest in MAs as a
                  program area rather than a collateral functional process or duty that comes into
                  play only during an incident response. The development of an MA program
                  office, with a dedicated full-time staff and management team, established budget,
                  and officially delegated authorities and responsibilities, would substantially
                  improve all aspects of the MA process.

                  Enhance management of mission assignments (Limited) – Managing and
                  accounting for MA resources is crucial to managing the federal response to an
                  incident. FEMA has established MA guidance but still faces challenges in its IT
                  systems.

                  FEMA has developed but not implemented an electronic action request form.25
                  MA officials say they are having difficulties finding funding for updating any
                  systems useful in tracking MAs. FEMA currently uses the Enterprise
                  Coordination and Approvals Processing System (eCAPS). This system was
                  designed with a focus on the administrative aspects of documenting, approving,
                  and reporting on MAs, rather than tracking the actual work requested and
                  performed or the status and outcomes of missions.26 Because of the proprietary
                  nature of information presented in eCAPS, FEMA’s partners do not have access
                  to this system. Once funding is made available, MA officials hope to move to a
                  system that will allow more flexibility, while securing data. Additionally, other
                  offices with disaster response functions use their own information systems, which
                  do not interface with those used in MA and other offices. MA officials say the
                  need for an integrated IT system hampers their progress in developing into a truly
                  effective enterprise.




25
   This is the system states use during disaster response to request services and goods. The action request form is not
 

standardized throughout FEMA disaster response; each region has developed its own form. 

26
   FEMA’s Sourcing for Disaster Response Goods & Services (OIG-09-96), August 2009.
 


                     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                        Page 44 

Continuing Concerns
     FEMA management support will be required to implement the MAWG’s
     processes, policies, and procedures. A significant investment of personnel,
     training, time, and budget resources will be required to begin the reengineering
     efforts. Most importantly, MA needs to have reliable IT systems that are
     integrated with its federal partners’ systems, so that information is efficiently and
     effectively shared. After the revised infrastructure has been put into place, an MA
     program office will need resources to sustain the effort.




       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                    Page 45 

Acquisition Management 





    Background
         Acquisition management is more than awarding a contract; it is the entire process
         that begins with identifying and clarifying a mission need and ends with the final
         closeout of an award. Without good acquisition management, response
         capabilities are weakened, taxpayer money is often wasted, and public trust in the
         government falls.

         FEMA’s acquisition function was heavily tasked in responding to hurricanes
         Katrina and Rita and suffered from several shortcomings. These shortcomings
         included a need for predisaster contracts, untrained staff, and insufficient planning
         for postaward monitoring and oversight. In recent years, FEMA management has
         focused on developing the acquisition function to a level that can respond
         effectively and efficiently to another catastrophic disaster. To assess FEMA’s
         progress in this area, we reviewed three critical components:

            •   Have predisaster contracts in place;
            •   Recruit, train, and retain sufficient acquisition staff; and
            •   Provide for postaward oversight.




           FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                        Page 46 

Critical Components
     Have predisaster contracts in place (Substantial) – Awarding contracts before a
     disaster gives FEMA time to run a full and open competition in order to ensure
     the best value to the government. Without predisaster contracts in place, FEMA
     is forced to award contracts on a noncompetitive basis or to less qualified vendors
     in order to support a prompt response. FEMA’s Office of the Chief Procurement
     Officer (OCPO) has developed a series of contracts for each of the FEMA
     directorates needing specific contract support during a disaster. The list of
     contracts is available on FEMA’s intranet and identifies what specifically is
     contracted for, the contracting officer’s technical representative (COTR) and
     contact number, and the responsible OCPO contracting official.

     OCPO officials stress the importance of the quality, rather than quantity, of
     predisaster contracts. Lessons learned from major disasters guide decisions on
     which contracts are no longer needed and the best sources for goods and services.
     For example, FEMA strives to avoid competing with cities and states for
     resources that are available via existing contracts, or for assets that are part of a
     limited pool, such as ambulances and buses.

     OCPO has also created an Acquisition Program and Planning Division, which
     functions as the primary link between acquisitions and the program areas that
     generate requirements, to assist with predisaster contracts. This has proven
     successful, as the program areas now have dedicated contracting support. OCPO
     needs to issue formal guidance requiring FCOs, contracting officers, and purchase
     cardholders to use the predisaster contracts when acquiring goods and services.

     Recruit, train, and retain sufficient acquisition staff (Moderate) – Currently,
     OCPO has 214 positions authorized, 137 of which are filled. Finding qualified
     candidates and filling open positions continues to be a challenge throughout the
     government. While FEMA and other agencies needing acquisition staff in the
     GS-1102 job series have received direct hire authorization, all are recruiting from
     the same pool of candidates for both trainee and experienced staffs. The
     acquisition staffing shortages have led some agencies to offer higher pay for
     journey-level staff. This has caused accelerated turnover as staff change agencies
     for promotions. DHS has implemented an intern program in acquisitions to

       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                    Page 47 

     increase GS-1102 staff. FEMA has benefited from this program but still needs
     additional contracting personnel.

     Because of competition among agencies that post their openings on usajobs.gov,
     OCPO is considering using monster.com for posting acquisition openings,
     especially for regional positions. A problematic software system that caused
     delays in hiring has been discontinued, and a few new hires are on board and
     others are expected to be working soon.

     Provide for postaward oversight (Modest) – Contracting responsibilities do not
     end with the issuance of an award. In fact, one of the most important aspects of
     the job, contract monitoring and oversight, begins after the award has been made.
     A lack of postaward oversight has been a continuing problem for FEMA.

     OCPO’s Acquisition Policy and Legislation Division has issued directives and
     standard operating procedures to provide additional guidance to staff on contract
     maintenance and monitoring. Policies exist that detail the contents of contract
     files, outline the process for transferring contract files from one contracting
     officer to another, and call for internal reviews of contract files.

     In September 2009, the FEMA Administrator signed a management directive
     establishing a COTR Tiered Certification Program, which has resulted in better
     contractor performance and increased value for taxpayers. The number of trained
     COTRs has increased from 700 to 1,450 since our last report.

     A topic FEMA highlighted in 2008 was the upcoming transition to PRISM as the
     system of record for contract management. FEMA officials said many existing
     contracting documentation problems would be corrected once FEMA adopted
     PRISM as its system of record for contract management. At that time, FEMA
     was using ProTrac. The PRISM transition did not occur because of a contract
     protest outside of FEMA’s control. Until PRISM can be installed, FEMA
     continues to use an upgraded version of ProTrac. This version provides FEMA
     with additional tools to improve contract management, but despite improvement
     to the available IT systems, FEMA still experiences contract management issues.

Continuing Concerns
     While FEMA has made progress in a number of areas and has improved its
     acquisition management function, many concerns remain. FEMA said many
     more predisaster contracts are in place. However, some Joint Field Office
     officials and contracting personnel still contract separately for the same goods
     rather than using the established contracts.

     OCPO officials acknowledged that hiring continues to be a major concern. The
     vacancy rate is almost 36%, although the rate is unusually high because of


       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                    Page 48 

recently authorized positions and past problems with a software program. There
are too few people to meet the government-wide need for acquisition personnel.
FEMA is unable to retain experienced personnel, who obtain promotions by
moving to other agencies. FEMA-specific incentives are not in place to attract or
retain personnel.

Even though OCPO has hired a number of contracting employees, a FEMA
official said new contracting personnel often have less than three years of
experience. It is critical that FEMA have an effective training regimen for these
new employees.




  FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                               Page 49 

Mitigation 





                            Modest Progress       Moderate Progress




        Limited or No Progress                                    Substantial Progress




     Background

            FEMA leads and supports a risk-based, comprehensive emergency management
            system to reduce the loss of life and property and to protect the Nation from all
            hazards. Mitigation, considered the cornerstone of emergency management,
            attempts to prevent hazards from developing into disasters or to reduce the effects
            of disasters when they occur. The mitigation phase differs from the other phases
            of emergency management in that it focuses on long-term actions to reduce or
            eliminate risk from hazards and their effects.

            Hazards typically fall into three broad categories: natural, technological, and
            manmade. Natural hazards are generally associated with weather and geological
            events, such as floods, hurricanes, tornados, or earthquakes. Technological
            hazards refer to human activities such as dam and levee construction or the
            manufacture, transportation, storage, and use of hazardous materials. Manmade
            hazards are typically associated with criminal or terrorist attacks using weapons
            such as explosive, biological, or chemical agents.

            Mitigating a hazard can involve both structural and process measures. Structural
            mitigation measures are generally technology-based solutions such as building
            flood levees and designing new or retrofitting existing buildings to make them
            more resistant to hazards. Process measures include policy-based measures such
            as enacting land use ordinances that prohibit residential development in flood-
            prone areas or requiring hazard insurance for structures susceptible to hurricanes.

            The principal federal statutes guiding disaster mitigation at the state and local
            levels are the National Flood Insurance Act of 1968 (P.L. 90-448), the Stafford

               FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                              Page 50 

                   Act, and the Disaster Mitigation Act of 2000 (P.L. 106-390). The National Flood
                   Insurance Act established the National Flood Insurance Program (NFIP), which
                   encourages local governments to mitigate flood risks through local regulation and
                   financial incentives. The Stafford Act is the country’s basic disaster relief law
                   and authorizes disaster programs implemented by FEMA. The Disaster
                   Mitigation Act established the requirement for state and local hazard mitigation
                   plans as a precondition for receipt of federal hazard mitigation project funds.

                   FEMA’s Mitigation Directorate manages a range of programs designed to reduce
                   future losses to homes, businesses, schools, public buildings, and critical facilities
                   from natural disasters. It also provides building design guidance for mitigating
                   multihazard events and promotes state and local multihazard mitigation planning.

                   To assess FEMA’s progress in this area, we reviewed the following critical
                   components:

                       •	 Develop an integrated National Hazard Mitigation Strategy;
                       •	 Improve local hazard mitigation planning process; and
                       •	 Improve hazard mitigation operations and outcomes.




           Critical Components
                   Develop an integrated National Hazard Mitigation Strategy (Modest) – The
                   FY 2010 Quadrennial Homeland Security Review defines broad national
                   objectives for mitigation:27

                       •	 Reduce the vulnerability of individuals and families: Improve individual
                          and family capacity to reduce vulnerabilities and withstand disasters.
                       •	 Mitigate risks to communities: Improve community capacity to withstand
                          disasters by mitigating known and anticipated hazards.

                   The challenge for FEMA is to translate these objectives into an integrated national
                   hazard mitigation strategy. Our October 2009 report stated that a coordinated

27
     Quadrennial Homeland Security Review Report: A Strategic Framework for a Secure Homeland, February 2010.

                     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                    Page 51 

                   risk-based, all-hazards mitigation strategy mandated by the Post-Katrina Act had
                   yet to be developed.28 We recommended that FEMA use the established network
                   of mitigation partners along with enhanced collaboration with DHS components,
                   other federal agencies, and private sector stakeholders to develop and implement a
                   risk-based, all-hazards mitigation strategy. FEMA is striving to accomplish this
                   by working through the White House sponsored Long-Term Disaster Recovery
                   Working Group to address pre- and post-disaster all-hazards mitigation. FEMA
                   has also collaborated with the National Emergency Management Association to
                   develop a strategic white paper, Recommendations for an Effective National
                   Mitigation Effort, which outlines principles and approaches for hazard mitigation
                   at the national, state, local, and tribal levels.

                   Improve local hazard mitigation planning process (Moderate) – The Disaster
                   Mitigation Act established requirements for state and local hazard mitigation
                   plans. In the subsequent decade, FEMA has effectively promoted mitigation
                   planning, and as of March 2009, 50 states, 6 territories, 33 tribal governments,
                   and 18,000 local jurisdictions had approved local mitigation plans, covering
                   approximately 77% of the Nation’s population.

                   The challenge going forward is to improve the quality and impact of this
                   mitigation planning enterprise and, ultimately, to reduce disaster losses and
                   expenditures below what they would have been otherwise. The long-term nature
                   of most mitigation planning makes it hard to measure effectiveness, and FEMA is
                   working with DHS Centers of Excellence and independent researchers to develop
                   better measurement frameworks and tools.

                   State and local hazard mitigation officials continue to report large gaps in the
                   capacity and will of communities to plan and implement mitigation strategies.
                   One consequence of the lack of local capacity is a costly reliance on external
                   consultants to develop and write hazard mitigation plans. Further, the intent of
                   local planning is to engage local stakeholders in the planning process, because
                   they are in the best position to identify and address local risks and vulnerabilities.

                   Improve hazard mitigation operations and outcomes (Moderate) – FEMA faces a
                   number of challenges in its efforts to improve hazard mitigation operations and
                   outcomes. The most important challenge is the scope and complexity of the
                   mitigation landscape—literally thousands of entities and individuals must work
                   together in a loosely coordinated effort to achieve nationally significant results.
                   Mitigation stakeholders, including flood plain managers, risk managers, insurers,
                   property developers, homeowners, government officials, environmentalists, and
                   the public at large, bring conflicting priorities and interests to any discussion of
                   mitigation.



28
     FEMA’s Progress in All-Hazards Mitigation (OIG-10-03), October 2009.

                      FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                                     Page 52 

A second major challenge is that FEMA is limited by statute to the promotion of
effective mitigation and does not have the authority to compel property owners to
mitigate floods or other hazards. This is true even when hazard mitigation
appears desperately needed, as in the case of repetitively flooded properties that
drain resources from the NFIP.

In the face of these systemic challenges, however, FEMA has achieved a number
of mitigation successes, strengthening resilience in communities across the United
States. Most important, the NFIP currently has more than 5.6 million policies in
force, protecting property owners against building and contents damage from
flooding.

More than 21,000 communities across the United States and its territories
participate in the NFIP by adopting and enforcing flood plain management
ordinances to reduce future flood damage. In exchange, the NFIP makes federally
backed flood insurance available to homeowners, renters, and business owners in
these communities. Community participation in the NFIP is voluntary. Buildings
constructed in compliance with NFIP building standards suffer approximately
80% less damage annually than those not built in compliance. FEMA estimates
that $1.2 billion in flood losses are avoided annually because communities have
implemented flood plain management requirements.

In addition to providing flood insurance and reducing flood damages through
flood plain management regulations, the NFIP identifies and maps the Nation’s
flood plains. Mapping flood hazards creates broad-based awareness of the
hazards and provides the data needed for flood plain management programs and
to actuarially rate new construction for flood insurance.

Although it has achieved significant successes in its 42-year history, the NFIP
also faces a number of systemic challenges that pose financial and operational
risks to FEMA and the American taxpayer. These challenges, which we, the
GAO, and others have discussed in depth include: (1) a lack of geographical
balance (68% of policies are written in five states); (2) a lack of financial balance
(the NFIP bears the underwriting risk while paying private insurers up to two-
thirds of all premium revenue to write policies and process claims); (3) a lack of
market penetration (fewer than 50% of property owners nationally in 100-year
flood plains carry flood insurance); (4) extreme vulnerability to catastrophic
disasters (post-Katrina claims payouts exceeded the total amount of all claims
paid in the history of the NFIP from 1978 to 2004); and (5) a lack of consensus
and funding among FEMA, the U.S. Army Corps of Engineers, and levee districts
regarding how and when to upgrade and accredit levees. The history of the NFIP
has shown that these issues are likely to continue to challenge the NFIP and its
stakeholders in the years ahead.




  FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                               Page 53 

Continuing Concerns
     Opportunities for improvement can be found in all phases of the mitigation
     planning and implementation process. These opportunities are generally known
     to primary mitigation stakeholders at the federal, state, and community levels, but
     will require focused, systematic effort to achieve. The key for FEMA will be to
     integrate these diverse stakeholders into the effort, and to coordinate and access
     the full range of mitigation resources. There are a number of opportunities for
     improvement, including the following:

        •	 Continue working with the Long-Term Disaster Recovery Working
           Group, the National Emergency Management Association, and other
           stakeholders to develop an integrated national hazard mitigation strategy.
        •	 Continue standing up the NFIP Reform Working Group to involve
           multiple stakeholders in shaping the future NFIP.




       FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                    Page 54 

Conclusion and Recommendations
    FEMA is under increasing pressure to provide more assistance to state, local, and tribal
    governments whose diminishing resources in tough economic times are quickly
    overwhelmed by large and catastrophic disasters. It is more important than ever that
    FEMA be prepared to assist state, local, and tribal first responders.

    FEMA has made progress in all of the areas we reviewed, although in some areas this
    progress has been modest. In a number of other preparedness areas, FEMA identified
    corrective actions, but implementation has not yet begun. FEMA would benefit from
    increased oversight of key preparedness areas to ensure that implementation of initiatives
    is sustained.

    The following concerns are common to our review of the critical components:

       •	 The need for more effective coordination with state, local, and tribal
          governments;
       •	 The need for IT systems that are updated and integrated agency-wide;
       •	 Too few experienced staff to handle the increasing workload; and
       •	 Funding that is not adequate to maintain initiatives; meet the costs of disasters;
          and recruit, train, and retain staff.

    FEMA is an agency that is in a constant state of flux. With so much change, it is often
    difficult for staff to determine the agency’s current priorities. Plans, initiatives, draft
    guidance, and working groups often, understandably, take a back seat to disaster response
    and recovery, and momentum toward finalization and implementation of key initiatives is
    slowed or lost. In light of FEMA’s increased involvement in routine disasters, coupled
    with the recent economic downturn, which has resulted in some state and local
    governments reducing their emergency management funding, we remain concerned about
    whether FEMA has sufficient staff focused on planning and preparedness efforts.

    We and the GAO have made many recommendations in our audits of FEMA operations
    that involve the key preparedness areas mentioned in this report. Many of these
    recommendations remain open. (See appendix C for a list of recent OIG and GAO
    reports.) We will continue to work with FEMA to ensure that corrective action plans are
    developed and that progress is made in fully implementing report recommendations. In
    addition, we plan to report the status of recommendations in our semiannual report.

    Our 2008 report, FEMA’s Preparedness for the Next Catastrophic Disaster, made
    recommendations that touched on most of the critical areas discussed above. We
    recommended: (1) improving the agency’s overall awareness of its readiness for a
    catastrophic disaster; (2) developing and sustaining systems to track the progress of major
    programs, initiatives, and other activities; and (3) regularly sharing reports on the status
    of such activities with key stakeholders. We reiterate the recommendations, which


             FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                          Page 55 

    remain open, and will continue to work with FEMA to ensure that progress is made
    toward better preparedness for the next catastrophic disaster.

Management Comments and OIG Analysis
    FEMA provided written comments on the draft of this report and concurred with the three
    recommendations. We consider the three recommendations resolved but open, pending
    receipt and review of FEMA’s corrective action plan. FEMA also provided technical
    comments, which we have incorporated into the report as appropriate. (FEMA’s written
    comments are in appendix B.)

    FEMA provided updated information subsequent to OIG fieldwork, interviews, and
    message meetings with high-level FEMA officials. While we have incorporated this
    information where appropriate, we did not validate this additional information or adjust
    our assessment of FEMA’s progress in the ten key preparedness areas.

    FEMA provided specific comments in eight of ten preparedness areas. Our analysis of
    FEMA’s comments in three areas is provided below:

    Overall Planning: FEMA stated that the draft report does not reflect the full extent to
    which FEMA’s assessment of the nation’s preparedness has improved over the last two
    years. Specifically, FEMA said that we did not mention several reports that it deemed
    important. However, the reports were not provided, and their importance was not
    stressed during OIG interviews and message meetings with high-level officials. On page
    14 of our draft report, we stated that FEMA was working to complete the draft National
    Preparedness Report. At the time of our assessment, the draft report was in the clearance
    phase with OMB.

    Also, FEMA said that we should have included the Regional Catastrophic Preparedness
    Grant Program in our report because the program is a major effort with numerous
    initiatives focusing on planning for catastrophic events. However, FEMA did not provide
    documentation to support the implementation of specific program initiatives.

    Logistics: FEMA contended that it has made substantial progress establishing a national
    supply chain strategy, one of the critical components we assessed. With its comments,
    FEMA provided us with presentations on a tiered sourcing concept and concepts of
    resource support for the 2009 and 2010 hurricane seasons. We appreciate this additional
    information. However, even considering this information, FEMA’s progress in this area
    does not rise to the level of substantial implementation. While we acknowledge that
    numerous working groups and teams have been created to support the national supply
    chain strategy, full scale implementation of the strategy has not yet occurred.

    Evacuations: FEMA noted that the Regional Catastrophic Preparedness Grant Program
    is designed to support planning for catastrophic events, including evacuation planning.
    FEMA said that 10 of 11 sites have projects related to evacuation planning efforts for


             FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                          Page 56 

their regions. However, FEMA has not provided specific documentation supporting
implementation of evacuation planning efforts.

Also, FEMA stated that it did not understand why its preparedness to support a regional
or large-scale evacuation remains a concern after the successful evacuation in response to
Hurricane Gustav. The concern persists for several reasons, including the need for
increased staff and funding in the Planning Division, the need to complete the
Operational Annex to the Mass Evacuation Incident Annex in the National Response
Framework, and the challenges inherent in evacuations of large metropolitan areas.

In addition, FEMA provided comments in five areas: Emergency Communications,
Housing, Disaster Workforce, Acquisition Management, and Mitigation. We believe that
the report was responsive to FEMA’s observations in these areas. FEMA did not provide
comments in two areas: Coordination and Support, and Mission Assignments.

We look forward to working with FEMA as corrective action plans are developed to
address the recommendations in this report.




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                      Page 57 

Appendix A
Purpose, Scope, and Methodology


                   We conducted a high-level “scorecard” assessment of FEMA’s
                   preparedness to respond to the next catastrophic disaster. Together with
                   FEMA officials, we identified ten key areas as those most vital to FEMA’s
                   preparedness:

                       •	   Overall Planning
                       •	   Coordination and Support
                       •	   Emergency Communications
                       •	   Logistics
                       •	   Evacuations
                       •	   Housing
                       •	   Disaster Workforce
                       •	   Mission Assignments
                       •	   Acquisition Management
                       •	   Mitigation

                   Within each area, numerous critical actions need to take place before
                   FEMA is sufficiently prepared for a catastrophic disaster. To use our time
                   and resources wisely, we collaborated with FEMA officials to select two
                   to four critical components within each key area. Most of the critical
                   components we assessed in 2010 were the same as in 2008. For a few
                   areas, components were revised based on collaboration with FEMA
                   officials and the current level of agreed-upon importance. We:

                       •	 Interviewed FEMA officials to obtain information and supporting
                          documentation;
                       •	 Reviewed reports and testimony from our office, GAO, Congress,
                          and others regarding FEMA’s readiness (see appendix C);
                       •	 Reviewed documents provided by FEMA, including plans, 

                          policies, organization charts, and self-assessments; 

                       •	 Reviewed applicable laws, such as the Stafford Act (P.L. 100-707),
                          Homeland Security Act (P.L. 107-296), and Post-Katrina Act (P.L.
                          109-295); and
                       •	 Conducted message meetings with FEMA officials from April 29
                          to May 21, 2010, to discuss review results.

                   Our ratings for the ten key areas are based on a four-tiered system ranging
                   from “limited or no progress” to “substantial progress.” Throughout this
                   report, we based our ratings on the following criteria:

                   Limited or No Progress: There is an awareness of the critical issues
                   needing to be addressed, but specific corrective actions have not been
                   identified. Within this phase, interim steps include a problem analysis,
                   discussion of corrective actions, and development of a strategic plan.

              FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                           Page 58 

     Modest Progress: Corrective actions have been identified, but
     implementation is not yet underway. Within this phase, interim steps
     include selecting corrective actions, obtaining management approval,
     planning for implementation, and securing funding commitments from
     DHS for each action.

     Moderate Progress: Implementation of corrective actions is underway, but
     few if any have been completed.

     Substantial Progress: Most or all of the corrective actions have been
     implemented.

     The 2010 ratings were assessed independently from the 2008 ratings.

     We used the critical components, as well as our broader knowledge of the
     key areas, to gauge FEMA’s overall progress. For ease of understanding,
     we used the same rating categories used to rate the critical components
     within each area; however, we adapted the criteria to present a better
     picture of FEMA’s overall progress. For example, to achieve moderate
     progress overall, FEMA would have to identify and complete more than a
     few corrective actions. To achieve a rating of substantial progress overall,
     FEMA would have to complete most corrective actions in the key
     preparedness area.

     We conducted our review between November 2009 and May 2010 under
     the authority of the Inspector General Act of 1978, as amended, and
     according to the Quality Standards for Inspections issued by the
     President’s Council on Integrity and Efficiency. Major OIG contributors
     to the review are identified in appendix D.




FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                             Page 59 

Appendix B
Management Comments to the Draft Report


                                                                                u.s. I)opam"o"l Of lIo",oI."d Mour;l)"
                                                                                Wash;"!:lon, DC 2().l72




                                                                   ~_FEMA
                                                                     "~D"~



                                              AUG     6 1010


        MEMORANDUM FOR:               Matt Judueki
                                      Assistantlnspcctor Gencral
                                      Office of Emcrgeney Management Oversight
                                      Officc of Inspector Gcncral


        FROM:                         David 1. Kaufman   N'L--
                                      Director           11
                                      ORice of Policy and Program Analysis


        SUBJECT:                      Commcnts on OIG DraH Report, FEMA's Preparednessjor tile
                                      Nexi C{//(ISII'opfric Disas/er ~ An Upda/c

        Thank you for the opportunity to review and comment on the Office of Inspector General's
        (OIG's) subject draft audit report. As the Federal Emer&cncy Managcmcnt A&cncy (FEMA)
        works toward refining its programs, the OIG's independent analysis of pro~,'Talll performance
        greatly benefits our ability to continuously improve our activities.

         We arc happy to notc that sincc your rcport in March 2008, 010-08-34, FE,\;/A 's Prcpwcdllcss
        jor Ihe Next Calasll'Ophic Disasler, we have improved our performance in four of the nine
        preparedness areas (Emergency Communications, Evacuations, I-lousing, and Mission
        Assignments) you chose to evaluate and rcmained steady in the remaining areas. One new area,
        Mitigation has been added for this current review. Overall, we are very pleased thnt you have
        recognized our efforts and consider this to be a very favorable report.

        FEMA concurs with the draft report's three recommendations which arc reiterations of those
        contained in your 2008 report. We have implemented many of the previous OIG
        recommcndations citcd in Appcndix C of your rcport and continuc to develop corrcctive action
        plans for others. Clearly these efforts have led to the improved "scores" recorded in this updated
        rcport.

        Our following comments. many containing updated infonnation for your eonsidcration when
        preparing thc final report, are organized by the prcparedncss arcas in your report. Technical
        comments havc been provided under separate cover.




                 FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                     Page 60 

                                                                                                      2




Overall Planning

The draft report does not reflect the full extent to which FEMA's assessment of our nation's
preparedness has improved over the past two years. For example, in this section the draft
specifies the Cost to Capabilities initiative and Gap Analysis Programs (GAP) but does not
mention the last three annual State Preparedness Reports, the most recent of which has evolved
to a capabilities-based, quantitative self-assessment of each State's preparedness. It also does
not reference the draft National Preparedness Report, which is currently in concurrence. These
reports demonstrate that FEMA has substantially improved our assessments of
capabilities/readiness at the national, state, and local levels.

With respect 10 the draft report's statement regarding an effort to update the status of
catastrophic planning, more current infonnation is now available. Protection and National
Preparedness (PNP) has completed a review of the current status of catastrophic planning in all
50 states, silt territories.' districts, and 75 of the Nation's largest urban areas. This analysis shows
that, while significant progress has been made in core aspects of planning, there remains a gap in
planning for the unique issues faced during catastrophic events.

Similarly, with respect to the information about Citizen Corps Councils, more updated
information is available. Eltpanded online data collection tools to assess the activities of Citizen
Corps Councils and Community Emergency Response Team (CERT) programs nationwide have
been developed and were approved on February 12, 2010 by the Office of Management and
Budget (OMB). FEMA is in the process of conducting outreach and technical assistance on the
tools and is eltpecting to launch the tools in September 201 O. Once the registration process is
complete, anticipated by the end of November 2010, FEMA eltpects to contact the identified
sponsoring organization for an appropriate sample size to verify the CouncillCERT program and
to confirm the listed point of contact. Eltpanded data collection will allow FEMA to maintain a
greater understanding of both activity levels and challenges facing local councils and CERT
programs in the activities they conduct to engage the community in planning for disasters and to
prepare individuals and organizations. States will maintain their role in the approval process for
re-registered Councils and the CERT Program. By December 30, 2010 FEMA will release a
report of the data contained in the new Council and CERT program registries. FEMA believes in
the importance of presenting the public with accurate information and will work. to ensure the
accuracy of the registry data of Citizen Corps Councils and CERT Programs on an ongoing
basis.

We also wish to point out that community preparedness is integrated throughout FEMA's
primary strategic tools including The Quadrennial Homeland Security Review (QHSR): A
Strategic Framework/or a Secure Homeland, released by the Department of Homeland Security
in February 2010. The QHSR offers a vision for a secure homeland and a resilient people where
resilience is defined as the need to "foster individual, community, and system robustness,
adaptability, and capacity for rapid recovery." The FEMA Administrator's Intent for Building
the FY 2012-2016 Future Year Homeland Security Program, also released in February 2010,
echoes this theme of integrating participation from all sectors and from the public at large. In
addition, the National Protection Directorate (NPD) strategic plan will identify partnerships




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                 Page 61 

                                                                                                  3



throughout the Agency to ensure a "whole of Agency" effort on pre-incident preparedness
actions. The NPD strategic plan will incorporate the elements identified in the Community
Preparedness Strategic Approach, as well as the 2009 NPD Operating Plan, the FEMA Strategic
Plan and other relevant documents. NPD plans 10 have a strategic plan developed by the end of
Calendar Year 2010.

Your draft report also fails to mention the Regional Catastrophic Preparedness Grant Program
(RCPGP). This is a major effort underway with 11 Urban Area Security Initiatives to focus on
planning for catastrophic events. The RCPGP provides funding and resources for the full·
spectrum of catastrophic planning activities. The RCPOP is focused on the local and regional
levels of government, and requires a chartered Regional Catastrophic Planning Team to address
the challenges faced when planning for these events. Significant progress has been made to date
in creating relationships, conducting joint planning, and producing products useful to the
participants and the nation at large.

While the Overall Planning Section is rightfully concentrated on PNP, Response Catastrophic
Planning efforts have been ongoing and are now a priority ofthe Administrator and of the Office
of Response and Recovery. The following bullets reflect strong progress, continued success, and
a path forward towards catastrophic planning by the Response Directorate and its Planning
Division:
    o Response is currently working to align existing federal response planning initiatives such
        as the Gap Analysis Program (GAP), catastrophic planning, evacuation planning, and
        emergency communications planning into a coordinated operational planning effort.
    o These planning initiatives are now merged into one Planning Division which will provide
        technical assistance planning teams to assist with national and regional plan development.
    o The Planning Division is working closely with both Logistics and Recovery Directorates.
    o The Response Directorate is working with the National Preparedness Directorate to align
        the grant program initiatives with Regional, State, and local planning.
    o In 2010, Response published a document intended to ensure plan consistency. The
        Regional Catastrophic Planning Guide serves as a "how to" for FEMA regional planners
        involved in any type of collaborative planning effort with Federal, state, territorial, and
        tribal partners.
    o Our largest catastrophic planning initiative, the New Madrid Seismic Zone, is on target to
        be completed by September 2010.

Emergency Communications

We submit the following additional infonnation on the Regional Emergency Communications
Coordination Workgroups (RECCWGs) referenced in this section of the draft report. These ten
Workgroups have been established to address interoperable emergency communications
concerns:

       o RECCWGs are mandated planning and coordinating bodies responsible for providing
         a forum to assess and address the survivability, sustainability, operability, and
         interoperability of emergency communications systems at all levels of government.




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                             Page 62 

                                                                                                   4


       o    RECCWGs provide insight into regional preparedness efforts by serving as a
            mechanism for state, local, and tribal agencies to support FEMA and other Federal
            agencies in defining and integrating emergency communications support during an
            incident.

Updated infonnation is also available regarding the status of emergency communications plans.
To date 31 stales and 9 regions have emergency communications plans with 4 more state plans
slated to be completed this fiscal year and the one remaining regional plan in its final stages.
The remaining state plans will be completed at a rate of6 per year under the current budget. We
are also doing an annex for American Samoa which had not been planned but additional
resources were identified to support the Tsunami alert and warning system initiative.

With respect to progress in the emergency communications area, we would point to the Public
Safety Interoperable Communications (PSIC) Grant Program, which is administered by the
Department of Commerce (DOC) in consultation with Department of Homeland Security
(DHS)/FEMA, as a leading example of a Federal program that supports emergency
communications activities. More than 90 percent ($811 million) ofPSIC funds were designated
by State and local agencies for acquisition and deployment of equipment that will increase
emergency communications interoperability. Jurisdictions invested in all frequency bands
(specifically, VHF, UHF, 700 MHz, and 800 MHz) and relied heavily on advanced and
standards-based (such as Project 25 [P25]) technology, including Internet Protocol (IP), satellite,
and video for public safcty purposes.

In consideration of the available Federal funding support for emergency communications
technology, DHSIFEMA and the DHS Office of Emergency Communication (OEC) opted to
maximize the impact of the Interoperable Emergency Communications Grant Program (IECGP)
funding by focusing on strengthening state and local governance structures, to enable them to:
(a) implement a statewide plan; (b) ensure that those plans align with national goals and
objectives; (c) effectively manage large communications projects; and (d) improve emergency
communications capabilities.

Logistics

The draft report indicates that FEMA has only made moderate progress since the 2008 audit in
establishing a national supply chain strategy. Significant progress has been made on maturation
of the national supply chain by building strong partnerships and developing clearly identified
sourcing strategies for "routine" through catastrophic events. Consequently it is our position that
we have made substantial progress in this area since 2008. All of our efforts have been
consistent with the Post-Katrina Emergency Management Refonn Act of 2006 (PKEMRA)
mandate requiring the Administrator to develop an efficient, transparent, and flexible logistics
system for procurement and delivery of goods and services necessary for an effective and timely
response to major disasters, acts of terrorism, and other emergencies and for real-time visibility
of items at each point throughout the logistics system. This legislation precipitated the National
Logistics Coordinator (NLC) concept that is currently incorporated in the National Response
Framework, Emergency Support Function, ESF #7 (Logistics Management and Resource
Support), and the accompanying ESF #7 Annex.




           FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                              Page 63 

                                                                                                    5




Specifically, our national supply chain strategy is based upon a tiered sourcing concept that
aligns with the incident magnitude (copy of this information 10 be provided under separate
cover). OUf deliberate planning efforts for effective supply chain support begin with our
Regional Planning Assistant Team (RPAT). This learn consists of Headquarters Logistics
Planners who are individually assigned to each of our ten regions. The team works through our
regional Logistics Chiefs. who work with their respective siaies to develop regional logistics
support requirements. Once developed, the Resource Management Group (RMG), as mentioned
in the OIG report, develops the definitive sourcing plan for each state. Both our 2009 and 2010
Hurricane Season Concept of Resource Support Briefs (copies to be provided under separate
cover) are the direct outcomes afthis process. Additionally, this concept was used to support
two of the most challenging supply chain scenarios since Katrina, Haiti and Samoa. As
described in the FEMA Tiered Sourcing StrategyIPlanning document, the total cost of2008
logistics support (including Hurricanes Gustav and Ike) exceeded $1 billion and 2009 (including
the American Samoa Tsunami) over $42 million. The complexity, scale and efficiency of service
and support provided during 2008 and 2009, could not have been accomplished without a highly
effective national supply chain strategy.

Additionally, this report should note and emphasize that FEMA routinely collaborates with both
DHS Science & Teclmology (S&n and the FEMA Office of the Chief Infonnation Officer
(CIO). Specifically, the FEMA OCIO has appointed a dedicated Delivery Manager to the
Logistics Supply Chain Management System (LSCMS) Program. Additionally, FEMA conducts
weekly 3Q-minute Executive Briefings which the CIO personally attends. FEMA also conducts
bi-weekly meetings which the project managers, along with OCIO key players attend. The
FEMA CIO attends and co-chairs this meeting.

Evacuations

This section in the draft report mentions the Catastrophic Disaster Planning Initiative but nothing
about the Regional Catastrophic Preparedness Grant Program. As discussed above, the RCPGP
is designed to support planning for catastrophic events to include evacuation planning. To date,
ten of the eleven sites have projects relating to evacuation planning efforts for their regions.

Also, the National Plan Review mentions several elements of progress regarding evacuation
plamting that should be included in this section. For example, the Evacuation Plamting
Technical Assistance program created in 2007 has been delivered 15 times since its inception
and also states and urban areas have indicated an increased confidence in their Public Protection
and Evacuation appendices.

We would also like to point out additional infonnation regarding GAP. The GAP mission has
remained the same; however, the fonner program has been integrated with a holistic approach
and in a new functional organizational framework to achieve the same mission. GAP is now
considered a tool not a program or how we develop a plan. It is an analytical tool to help
develop initial mission analysis and staff estimates, which are both key steps in plan
development. FEMA will continue to develop interagency and regional plans in FY2010 and




        FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                             Page 64 

                                                                                                  6



FY2011. The staffing estimate and capability assessment process is an imperative step in the
development of these plans.

Finally, we do not understand why OUf preparedness to support a regional or large-scale
evacuation still remains in question. Over 2 million people were successfully evacuated during
the 2008 hurricane season with Gustav and Ike.

Housing

FEMA requests that you add the following information to your Housing section: "In addition to
the progress FEMA has made towards improving the interagency and intergovernmental
coordination of disaster housing through the progress of the National Disaster Housing Task
Force, FEMA has also worked to clarify the roles and responsibilities of Individual Assistance:
(lA) persolU1cl and key external stakeholders through its IA Disaster Housing Concept of
Operations (DHOPS CONOPS). The DHOPS CONOPS will identify and explain the major
program activities associated with providing FEMA disaster housing program while
documenting each activities purpose, intended sequence, preferred methodology, and
perfonnance targets."

With respect to your discussion regarding the Non-congregate Housing Program, we request that
you include the following: "FEMA has also developed a Non-congregate Housing Program that
allows for sheltering 500,000 disaster-affected households after a catastrophic event. This Non-
congregate Housing Program uses hotels and motels or federally-owned unoccupied housing
units as a sheltering resource. Each option has unique challenges.

FEMA maintains a contract to place disaster survivors in hoteVmotel rooms for an extended
period. The vendor has access to a network of 14,000 participating hotels across the entire
nation, and has proven capability of housing more than 93,000 households in a single night.
However, hotels are not a long-term solution; they are a transition to longer term housing
resources. The program's success depends on the ability to register disaster survivors quickly
and on the existence of available hotel/motel resources where disaster victims have relocated.

In support of sheltering individuals in federally-owned and unoccupied housing units, FEMA has
worked with other federal partners to identify approximately 46,715 units nationwide. Although
these units are available, there are several constraints on this program. States must be willing
and able to receive disaster survivors, disaster survivors must be willing to relocate to areas
where this housing is available, and available units may not be ready for immediate occupancy
without first being repaired."

While the report indicates that "FEMA has only limited headquarters and regional staff to fully
execute an expert-based disaster housing mission for every disaster," we wish to point out that
we are currently hiring and training more full time staff in the regional offices to increase
capacity in this area.

With respect to encouraging the state and local role in developing and implementing housing
solutions, the National Disaster Housing Task Force will work in conjunction with the FEMA




          FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                             Page 65 

                                                                                                  7



regional offices to encoUl1l.ge and provide technical assistance 10 slales for developing their
State- Led Disaster Housing Task Forces (SLDHTF). The goal is to develop SLDHTFs in all
states.

Pisaster Worlc(orce
FEMA notes the following four significant developments regarding the disaster workforce:

IntegJ1ltion ofthe Disaster Reserve Workforce Division (DRWD) and the Office ofthe Chief
Component Hwnan Capital Officer (OCCHCO) • as mentioned in the OlG draft report,
establishing and fully staffing a reserve-only program office was noted in the 2007 Agency
assessment as the highest priority action which would transfonn the Disaster Reserve Workforce.
While the assessment provided management with an initial focus for our efforts - the Disaster
Reserve Workforce·· we also identified shonfalls in the efforts and resources to sustain FEMA's
full-time workforce, which also deploys during active disasters. In addition, it resulted in the
duplication of efforts by the Disaster Reserve Workforce and Hwnan Capital Divisions, which
maintained separate budget management, policy development, and infonnalion systems
functions. In February 2010, as part ora broader Headquarters realigrunent, the Disaster Reserve
Workforce and Human Capital Divisions were integrated into a new OCCHCO. As a result. the
Disaster Workforce Division now oversees the readiness and deployment functions for the entire
disaster workforce of full-time and Reserve employees. while at the same time a critical mass of
staffing in the budget, policy and system areas are able to provide more effective services to both
the institutional workforce and the deployable workforce.

Agency-Wide Credentialing Program - FEMA recognizes the need to prepare and deploy disaster
workers who perfonn at expected standards of perfonnance. While the existing credentialing
program represents a vital first step forward, FEMA '5 credentialing program must be
reconfigured to meet the demands of emerging operating doctrine, as well as to provide unity of
effort with all levels ofthe emergency management community at the federal, stale, local, tribal,
and private sector levels.

In March 2010, FEMA began working on broadening the oversight of its Agency-wide
credentialing program. Oversight of credentialing FEMA employees was transferred to the
Deputy Administrator for Protection and National Preparedness. This change brings under one
organizational "hat" a wide array of credentialing initiatives for which FEMA is responsible, and
places them in the entity which ensures unity of efforts in line with the National Response
Framework.

In addition to changes in program oversight, FEMA will begin moving from the existing
approach to one which requires demonstrated perfonnance in training and in the field in order to
be credentialed. This is an approach which incorporates best practices from the model employed
by the National Wildfire Control Group.

As FEMA builds out this new "FEMA Qualification System," execution of the existing
credentialing program continues. At this time, FEMA reports the following updated status for




          FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                              Page 66 

                                                                                                   8



the existing program documented in the bulleted lisl on page 44 of the draft report;

   •   Eleven cadres have a complete and approved Cadre-Specific Plan (CSP). Five of these
       eleven cadres have migrated to the existing credentialing framework.
   •   Six cadres have a complete CSP that awaits approval.
   •   No cadres have a CSP that is actively in development.
   •   FoUl cadres have begun the initial planning in order to credential their disaster workers
       under the FEMA Qualification System.

Impact of Disaster Relief Funds Restrictions· a third development experienced subsequent to
DIG interviews conducted for this report was a shortfall in Disaster Relief Funds (DRF) that
negatively impacted all funding budgeted for the Disaster Reserve Workforce program in
FY2010. From February until July, as a responsible step of stewardship, FEMA implemented
proactive, immediate needs funding guidance in order to extend the available balance of DRF
funding while waiting for supplemental funding. DRF funding is appropriated annually by
Congress to aid disaster survivors and help communities across the country recover. Congress
may offer supplemental appropriations, as needed, throughout a year to address additional needs.
As a result of these restrictions, all expenses charged to the Disaster Readiness and Support
account within the DRF were affected; including specific disaster-related functions such as the
Hazard Mitigation Grant Program and certain categories of public assistance to states, local, and
tribal governments.

The impact of "immediate needs" funding restrictions on the Disaster Reserve Workforce
program has been severe. The program sent appro"imately 300 Reservists to credentialing-based
training in FY201 0, rather than the 2,000 it had planned. Contracting vehicles that provide the
technology infrastructure to effectively manage the disaster workforce could not be not approved
until late July 2010, when Congress approved a supplemental appropriation to replenish the DRF
and FEMA could lift its "immediate needs" funding restrictions.

Surge Capacity Force Concept of Operations - subsequent to interviews by the OIG, FEMA
achieved a major milestone towards creation of the plan for a Surge Capacity Foree required by
Section 624 of the Post-Katrina Emergency Management Reform Act.

On June 30, 201 0, the FEMA Administrator approved the draft concept of operations plan for the
Surge Capacity Force and forwarded it to DHS for review by all other DHS components. On a
parallel track during June 2010, the DHS Office of the Chief Human Capital Officer established
a working group ofhuman resource managers from the DHS components to identify ways to
avoid pitfalls experienced when FEMA has deployed employees from other federal agencies, as
documented in OIG reports such as OIG-07-051, Federal Emergency Management Agency's
Volunteer Service Program Following Hurricane Katrina, and 010-06-32, A Performance
Review ofFEMA 's Disaster Management Activities in Response to Hurricane Katrina.

A Surge Capacity Force Concept of Operations Plan, applicable to all DHS components, is
expected to be finalized in FY2011.




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                             Page 67 

                                                                                                          9



Acquisition Management

The Office of the Chief Procurement Officer (OCrO) has placed the lisl of all pre-positioned
disaster response contracts on its Intranet site to provide easy access to those responding 10
disasters in the field. Additionally, aepo has provided to all Foocral Coordinating OffiC(.'TS
(FCOs) the prcposilioned contrat.1.lisl and additional infonnation in a customer-friendly fonnat
called the FCD ToolBox. The tool box. is also posted 10 OCPO's intranct site. FEMA must
balance the use of prepositioncd contracts with the requirements ofScQion 307 of the Stafford
Act that require FEMA to contract with local vendors to the maximum extent possible when
responding to a declared Major Disaster.

With respect 10 lhe need for additional staff, while your draft report indiClltcd that OCPO has a
36% vacancy ratc, the Acquisition Operations Division. under which the majority of contracting
officers and contract specialists are employed, has a 12% vacancy rate. Finding qualified
candidates and filling open positions continues to be a challc:nb'C" In an effort to improve the
situation. FEMA has 18 interns on board in \·arious stages of complL1.ion of their three-year
rotation. For other positions in OCPO. injob series such as 1101.340 and 343. no direct hiring
authority e:<iS15. leaving these positions to be filled through lengthy merit sysH:m competitive
recruitment process. For e:<ceptional applicants, recruitment bonuses arc used. Moreover,
retention bonuses are also used to retain highly qualified acquisition personnel.

Training is another priority of the OCPO and the Officc offers a robust series of courses through
each fiscal year to include DHS sponsored and Fedeml Acquisition Institute and Defense
Acquisition University no-cost acquisition training.

The numbcr of FEMA Contracting Officer Technical Representatives (COTRs) has increased
significantly (from 700 to [450) and the OCPO has institult:d a COTR Tiered Certification
Program which your report correctly identifies as having "resulted in better contractor
perfonnance and incrC3sed v(lluc for lu:<p3yers:' We wish to emphasize that there arc 57 COTRs
certified at the Tier III level, 56 certified at the Tier [[level and the remainc!l.'!" are Tier 1certified.
COTRs that arc Ticr 1[1 ccrtificd may be assigned 10 contracts of allY dollar value; Ticr II COTRs
may be assignl.oU 10 contracls up 10 S57 million; mnl Tier III COTRs may be assigned to contracts
UI) to S5 million. As the Tiered COTR initiative is rcilltivcly new, FEMA COTRs have [8
months from the date of the signed CaTR Directive 10 become certificd at the appropriate level
(March 28. 2011).

Moreover, the OCPO has taken a large step forward in increasing contract oversight and
administration of disaster contracts. aero has gained approval for 26 Direct Chllrgc CORE
employees that will constitute <I Disaster Acquisition Response Team (DART) whosc primary
focus will be to rcspond to disasters and provide contrnct administration and oversight of thc
large disaster contracts in Ihe field. This staff will consist of Administrative Contracting Officers
and Quality Assurance Representatives who will providc consistent colltractlifccyelc support in
each disaster. This team's focus will also include the closing out of disaster contracts in an
effort to assist in the over.tll Disaster Closeout Process and return funds to the Disaster Relief
Fund. Mosl of the DART (23 of the 26 team mcmbers) will be located in Rcgions IV, VI and IX
where a large part of disaster activity occurs. However, the tcum will also S(.TVe thc disastcr




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                                  Page 68 

                                                                                                 10


contract administration and disaster contract close-out needs of the other regions. aepo expectS
the team to be hired and in place at their regional locations within the next few months.

In March 2010, OCPO's Acquisition Program and PlaJUling Division (APPO)"created a new
branch, the Business Management Operations Branch (BMOS), that is responsible for
overseeing FEMA's compliance with DHS's Directive 201-01: Acquisition Lifecycle
Management. In this capacity, the BMOS supports both FEMA's Head of Contracting Activity
and Component Acquisition Executive in meeting their obligations to oversee FEMA's
acquisition management activities for major acquisitions. In meeting its mission, the BMOS
provides the executive support to FEMA '5 Acquisition Review Board (ARB), serves as the
primary liaison to DHS's ARB and provides both acquisition oversight and technical assistance
to FEMA program offices in the execution of FEMA major acquisitions. The BMOB continues
to recruit and fill vacancies within the Branch, and establish operating procedures and working
relationships with FEMA programs.

With respect to the report's identification ofDHS infonnation technology system issues
impacting FEMA procurement, FEMA wishes to point out that even though the system's security
plan is still in the DHS approval process, the FEMA CIO has pennitled system upgrades as well
as the installation of new acquisition provisions and clauses. Rather than being six months to a
year behind in implementing new acquisition policies, the OCPO is able to install these new
acquisition policies within 30 to 60 days of publication.

Finally, in the draft report's COnlinuing Concerns for Acquisition Management, you state that
"FEMA has said that many more pre-disaster contracts are in place. However, some Joint Field
office officials and contracting personnel still contract separately for the same good rather than
using the established contracts." However, to comply with Section 307 of the Stafford Act,
FEMA is supposed to minimize the use of prepositioned contracts, so this statement appears to
be in conflict with the statutory mandate to use local finns.

Mitigation

The Federal Insurance and Mitigation Administration (FIMA) in FEMA has worked to increase
progress in the critical components identified by OIG.

FIMA has worked with the National Emergency Management Association (NEMA) to coauthor
a white paper - Recommendations/or an Effective National Mitigation Effort - BUilding stronger
partnerships, increased resilience, and disasler resistance/or a safer nation.
(http://www.nemaweb.org(?3I77) The principles of this white paper, which offers strategic
themes and elements of a national mitigation strategy, are being integrated into the ongoing
development of the National Recovery Framework and efforts to adapt to climate change.

FIMA has initiated a new program, Risk MAP (Mapping, Assessment and Planning), that
provides communities with flood infonnation and tools they can use to enhance their mitigation
plans and better protect their citizens. Through more accurate flood maps, risk assessment tools,
and outreach support, Risk MAP builds on Map Modernization and strengthens local ability to




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                              Page 69 

                                                                                                 11



make informed decisions about reducing risk. The goals of this new program are laid out in the
RiskMAP multi year plan (http://www.fema.govllibrary/viewReoord.do?id-3587)

FIMA continues to make progress with the National Flood Insurance Program (NFIP) Reform
Workgroup. The Workgroup has established a three phase reform process: Phase I - capture
stakeholder concerns and recommendations from the NFIP Listening Session; Phase II - analyze
stakeholder feedback, develop evaluation criteria and create a portfolio of public policy
alternatives; and Phase III - evaluate public policy alternatives began in June 2010 and will last
18 to 24 months. Phase III will result in a comprehensive NFIP reform package that will be
delivered to Congress.

Thank you again for the opportunity 10 comment on this draft report and we look forward to
working with you on other issues as we both strive to improve FEMA.




         FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                              Page 70 

Appendix C
Selected Reports

      Overall Planning

                   DHS’ Progress in Federal Incident Management Planning
                         (OIG-10-58), February 2010.

                   Management Advisory Report: FEMA’s IMAT Program (OIG-10-32),
                        January 2010.

                   Emergency Preparedness: FEMA Faces Challenges Integrating
                         Community Preparedness Programs into Its Strategic
                         Approach (GAO-10-193), January 2010.

                   National Preparedness: FEMA Has Made Progress, but Needs to
                          Complete and Integrate Planning, Exercise, and Assessment
                          Efforts (GAO-09-369), April 2009.

                   National Response Framework: FEMA Needs Policies and
                          Procedures to Better Integrate Non-Federal Stakeholders in
                          the Revision Process (GAO-08-768), June 2008.

      Coordination and Support

                   Disaster Recovery: Experiences from Past Disasters Offer Insights for
                          Effective Collaboration after Catastrophic Events (GAO-09-
                          811), July 2009.

                   Management Advisory Report: FEMA’s Response to Hurricane Ike
                        (OIG-09-78), June 2009.

                   National Disaster Response: FEMA Should Take Action to Improve
                          Capacity and Coordination between Government and
                          Voluntary Sectors (GAO-08-369), February 2008.

                   Homeland Security Information Network Could Support Information
                         Sharing More Effectively (OIG-06-38), June 2006.

      Emergency Communications

                   Emergency Communications: Establishment of the Emergency
                         Communications Preparedness Center and Related
                         Interagency Coordination Challenges (GAO-10-463R), March
                         2010.

                   Review of DHS’ Progress in Adopting and Enforcing Equipment
                         Standards for First Responders (OIG-06-30), March 2006.

            FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                         Page 71 

Logistics

            FEMA’s Logistics Management Process for Responding to
                 Catastrophic Disasters (OIG-10-101), July 2010.

            FEMA’s Sourcing for Disaster Response Goods and Services (OIG-
                 09-96), August 2009.

            Logistics Information Systems Need to Be Strengthened at the Federal
                   Emergency Management Agency (OIG-08-60), May 2008.

Evacuations

            Status of Implementation of GAO Recommendations on Evacuation of
                    Transportation-Disadvantaged Populations and Patients and
                    Residents of Health Care Facilities (GAO-08-544R), April
                    2008.

            Actions Needed to Clarify Responsibilities and Increase Preparedness
                   for Evacuations (GAO-07-44), December 2006.

Housing

            Disaster Assistance: Federal Assistance for Permanent Housing
                   Primarily Benefited Homeowners; Opportunities Exist to
                   Better Target Rental Housing Needs (GAO-10-17), January
                   2010.

            FEMA Temporary Housing Property Management Controls (OIG-10-
                 24), December 2009.

            Management Advisory Report: FEMA’s Housing Strategy for Future
                 Disasters (OIG-09-111), September 2009.

            Improvements to Internal Controls for FEMA’s Individuals and
                  Households Program Registration Process (OIG-09-110),
                  September 2009.

            Audit of Application Controls for FEMA’s Individual Assistance
                   Payment Application (OIG-09-104), September 2009.

            Final Letter Report: Potential Duplicate Benefits Between FEMA’s
                   National Flood Insurance Program and Housing Assistance
                   Programs (OIG-09-102), September 2009.



     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                  Page 72 

          Disaster Housing: FEMA Needs More Detailed Guidance and
                 Performance Measures to Help Ensure Effective Assistance
                 after Major Disasters (GAO-09-796), August 2009.

          FEMA’s Temporary Housing Unit Program and Storage Site
               Management (OIG-09-85), June 2009.

          Management Advisory Report: Computer Data Match of FEMA and
               HUD Housing Assistance Provided to Victims of Hurricane
               Katrina and Rita (OIG-09-84), June 2009.

          FEMA Response to Formaldehyde in Trailers (OIG-09-83), June 2009.

          Federal Emergency Management Agency’s Exit Strategy for
                Temporary Housing in the Gulf Coast Region (OIG-09-02),
                October 2008.

          FEMA’s Sheltering and Transitional Housing Activities After
               Hurricane Katrina (OIG-08-93), September 2008.

          Hurricane Katrina Temporary Housing Technical Assistance
                 Contracts (OIG-08-88), August 2008.

          Management Advisory Report – FEMA Emergency Housing Units
               Property Management (OIG-08-33), March 2008.

          Review of FEMA’s Use of Proceeds From the Sales of Emergency
                Housing Units (OIG-08-23), February 2008.

Disaster Workforce

          Challenges Facing FEMA’s Acquisition Workforce (OIG-09-11),
                 November 2008.

Mission Assignments

          Consolidated Report on DHS’ Management of 2005 Gulf Coast
                 Hurricanes Mission Assignment Funding (OIG-09-89), July
                 2009.

          U.S. Coast Guard’s Management of 2005 Gulf Coast Hurricanes
                 Mission Assignment Funding (OIG-09-34), March 2009.

          U.S. Customs and Border Protection’s Management of 2005 Gulf
                 Coast Hurricanes Mission Assignment Funding (OIG-08-80),
                 July 2008.

     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                  Page 73 

Acquisition Management

          Improvements Needed in FEMA’s Disaster Contract Management
                (OIG-10-53), February 2010.

          Opportunities to Improve FEMA’s Disaster Closeout Process
                (OIG-10-49), January 2010.

          FEMA’s Acquisition of Two Warehouses to Support Hurricane
               Katrina Response Operations (OIG-09-77), June 2009.

          Challenges Facing FEMA’s Disaster Contract Management (OIG-09-
                 70), May 2009.

          Internal Controls in the FEMA Disaster Acquisition Process
                 (OIG-09-32), February 2009.

          FEMA’s Implementation of Best Practices in the Acquisition Process
               (OIG-09-31), February 2009.

          Costs Incurred for Rejected Temporary Housing Sites (OIG-08-86),
                 August 2008.

          Hurricane Katrina Multitier Contracts (OIG-08-81), July 2008.

          Hurricane Katrina: Ineffective FEMA Oversight of Housing
                 Maintenance Contracts in Mississippi Resulted in Millions of
                 Dollars of Waste and Potential Fraud (GAO-08-106),
                 November 2007.

Mitigation

          Gulf Coast Recovery: FEMA’s Management of the Hazard Mitigation
                 Component of the Public Assistance Program (OIG-10-28),
                 December 2009.

          FEMA’s Progress in All-Hazards Mitigation (OIG-10-03), October
               2009.

Multiple Preparedness Areas

          Major Management Challenges Facing the Department of Homeland
                Security (OIG-10-16), November 2009.

          DHS Efforts to Address Lessons Learned in the Aftermath of Top
                Officials Exercises (OIG-09-53), April 2009.

     FEMA’s Preparedness for the Next Catastrophic Disaster – An Update


                                  Page 74 

     Actions Taken to Implement the Post-Katrina Emergency Management
            Reform Act of 2006 (GAO-09-59R), November 2008.

     Major Management Challenges Facing the Department of Homeland
           Security (OIG-09-08), November 2008.

     FEMA’s Preparedness for the Next Catastrophic Disaster (OIG-08-
          34), March 2008.

     Major Management Challenges Facing the Department of Homeland
           Security (OIG-08-11), January 2008.

     A Performance Review of FEMA’s Disaster Management Activities in
            Response to Hurricane Katrina (OIG-06-32), March 2006.




FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                             Page 75 

Appendix D
Major Contributors to this Report

                     Donald Bumgardner, Lead Director
                     Norman Brown, Director
                     Kaye McTighe, Director
                     Philip McDonald, Project Manager
                     Craig Anderson, Supervisory Auditor
                     Adrian Dupree, Supervisory Auditor
                     Nigel Gardner, Supervisory Program Analyst
                     Trudi Powell, Supervisory Auditor
                     Soraya Vega, Supervisory Program Analyst
                     Eric Young, Supervisory Auditor
                     Douglas Campbell, Program Analyst
                     Polin Cohanne, Senior Program Analyst
                     Kimberly Gilliland, Program Analyst
                     S. Ryan Hartong, Program Analyst
                     Eric Hostelley, Program Analyst
                     John Meenan, Program Analyst
                     Nathaniel Nicholson, Auditor
                     Puja Patel, Program Analyst
                     Alexandra Vega, Program Analyst
                     John Woo, Senior Auditor




            FEMA’s Preparedness for the Next Catastrophic Disaster – An Update

                                         Page 76
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Administrator
                      FEMA Audit Liaison (10-011-EMO)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




            FEMA’s Preparedness for the Next Catastrophic Disaster – An Update
 


                                         Page 77 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
